<html>
<title> - DEPARTMENT OF ENERGY'S FISCAL YEAR 2009 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        DEPARTMENT OF ENERGY'S FISCAL YEAR 2009 BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________

                           Serial No. 110-86


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
49-406                    WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="accbdcc3eccfd9dfd8c4c9c0dc82cfc3c182">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                   JOHN D. DINGELL, Michigan,Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chair                       Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             ROY BLUNT, Missouri
JANE HARMAN, California              STEVE BUYER, Indiana
TOM ALLEN, Maine                     GEORGE RADANOVICH, California
JAN SCHAKOWSKY, Illinois             JOSEPH R. PITTS, Pennsylvania
HILDA L. SOLIS, California           MARY BONO, California
CHARLES A. GONZALEZ, Texas           GREG WALDEN, Oregon
JAY INSLEE, Washington               LEE TERRY, Nebraska
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
JIM MATHESON, Utah                   TIM MURPHY, Pennsylvania
G.K. BUTTERFIELD, North Carolina     MICHAEL C. BURGESS, Texas
CHARLIE MELANCON, Louisiana          MARSHA BLACKBURN, Tennessee
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                  Dennis B. Fitzgibbons,Chief of Staff

                   Gregg A. Rothschild,Chief Counsel

                      Sharon E. Davis,Chief Clerk

                  Bud Albright,Minority Staff Director


                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     1
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     4
Hon. Edolphus Towns, a Representative in Congress from the State 
  of New York, opening statement.................................     5
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    10
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    10
Hon. Hilda L. Solis, a Representative in Congress from the State 
  of California, opening statement...............................    11
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    11
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    12
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................    13
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    14
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................    60
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................    63
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    64
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    64
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of Califonia, opening statement................................    65

                                Witness

Samuel W. Bodman, Secretary, U.S. Department of Energy...........    14
    Prepared statement...........................................    17
    Answers to submitted questions...............................   168

                           Submitted Material

Letter of November 30, 2007 from Samuel W. Bodman, to Hon. John 
  Shimkus........................................................    67
Letters from United States Governors.............................    68
Letters from Members of United States Congress...................    79
``Every dollar puts us closer to our FutureGen goal,'' Journal 
  Gazette-Times Courier Online, January 24, 2008.................   129
Letter of February 6, 2008, from Governor Blagojevich of 
  Illinois, to Hon. John Dingell.................................   131
Inserts for the record, Department of Energy.....................   133


        DEPARTMENT OF ENERGY'S FISCAL YEAR 2009 BUDGET PROPOSAL

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                          House of Representatives,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2123 of the Rayburn House Office Building, Hon. John D. Dingell 
(chairman) presiding.
    Members present: Representatives Dingell, Markey, Towns, 
Rush, Stupak, Engel, Green, DeGette, Capps, Allen, Schakowsky, 
Solis, Inslee, Ross, Matheson, Butterfield, Melancon, Barrow, 
Barton, Hall, Upton, Stearns, Whitfield, Cubin, Shimkus, Terry, 
Murphy, and Burgess.
    Staff present: John Jimison, Chris Treanor, Alex Haurek, 
Rachel Bleshman, David McCarthy, Kurt Bilas, Tom Hassenboehler, 
and Garrett Golding.
    Mr. Dingell. Good morning. Today the committee will hold 
the first in a series of hearings on the President's fiscal 
year 2009 budget request. For each of these four committee 
hearings, the chair is going to recognize members for opening 
statements and questions under the same procedures as in 
subcommittee hearings with one exception, and the chair invites 
the attention of the members to this. The chairman and ranking 
member of the subcommittee with primary jurisdiction will be 
recognized for a 3-minute opening statement. All other members 
will be recognized for a 1-minute opening statement. Members 
who are recognized for an opening statement and waive will have 
the opportunity for an additional minute during the first round 
of questions.
    The chair will recognize himself now for an opening 
statement.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    The chair first welcomes you back to the committee, Mr. 
Secretary, and we appreciate you taking time to appear before 
us to enlighten us on the Administration's priorities for the 
Department of Energy. Much has been happening in the energy 
section in the years since you have last testified. The 
International Panel on Climate Change released several landmark 
reports that focused the world's attention on the problems of 
climate change and the need for solutions. This committee spent 
a good deal of last year gathering information to prepare us to 
craft legislative solutions to the issue.
    The members of the committee will be interested to hear 
about the Department's efforts to address the problem and 
whether the Administration would be willing to participate with 
us in the crafting of an appropriate solution. The Congress 
recently passed an energy bill. It was signed by the President 
which included a landmark agreement on motor vehicle fuel 
economy as a substantial increase in the amount of bio-fuels 
that will be blended into the Nation's gasoline pool to 
decrease our dependence on imported petroleum. The bill also 
contains several important provisions on energy efficiency and 
conservation for appliances and buildings. In addition to 
saving energy these will bring about a significant reduction in 
the amount of greenhouse gases emitted into the atmosphere.
    As we have discussed before, Mr. Secretary, the 
department's track record in meeting past efficiency deadlines 
is less than stellar. I recall from the 2005 Energy Bill which 
my good friend, Chairman Barton, led us so ably, the DOE missed 
a number of deadlines contained in that statute, and I hope 
that you will outline to the committee what steps the 
department will be taking to implement the bill we just passed, 
particularly the energy efficiency provisions, which I would 
note have been a source of considerable distress to the 
committee, particularly with regard to appliance questions.
    There are two management issues that I do wish to have you 
direct your attention to as well. The first is related to the 
Yucca Mountain project. The Omnibus Appropriation Bill that was 
recently signed into law contained a substantial cut for Yucca 
Mountain. To your credit, Mr. Secretary, you have once again 
proposed a higher amount of funding, and I commend you and 
support you in that. Given the funding shortfall you face this 
year, however, I am interested in knowing how you see the 
project proceeding and what this meager appropriation means in 
terms of your ability to submit a license to the Nuclear 
Regulatory Commission by the end of the year.
    Second, this is a matter of great concern to me. DOE has 
requested $24 million to continue the initiatives for 
Proliferation Prevention Program, IPP, which aims to create 
commercial sector employment for Russian's weapons scientists 
who were left unemployed following the collapse of the former 
Soviet Union. In the 1990s this program may have helped prevent 
scientists' migration to rogue nations, a commendable purpose. 
Since that time, however, the landscape has significantly 
changed. Russia is now thriving. It is the largest oil producer 
in the world and the second largest oil exporter after OPEC. 
Given their going reserves it is fair to ask whether we should 
continue supplementing the pay of Russian scientists, and if so 
why and how. In addition, IPP funds may have been badly 
misdirected. The Government Accountability Office, GAO, 
recently found that more than half of the scientists funded by 
the IPP program had no involvement with weapons.
    More importantly, and this is a matter of very special 
concern to the committee, it appears that U.S. taxpayers are 
funding Russian institutes that are working on nuclear projects 
in Iran including the Bushehr reactor. The chair notes the 
Administration says the Bushehr is a front for the nuclear 
ambitions of Iran and that a November, 2007 national 
intelligence estimate on Iran's nuclear intentions and 
capability states that Iranian entities are continuing to 
develop a range of technical capabilities that could be applied 
to producing nuclear weapons if a decision is made to do so. 
Does DOE support Russian institutes that are also working on 
the nuclear projects of Iran? This program was born, we all 
agree, with a noble purpose. I have no doubt that those who run 
this program do so with the best of intentions.
    However, as I have said before, there is often a thin line 
between the noble and the naive. Again, Mr. Secretary, thank 
you for your appearance here today. I look forward to your 
responses to our questions. The chair now recognizes my 
distinguished friend, the gentleman from Texas, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I have a formal 
statement for the record. I am just going to submit it and 
speak extemporaneously.
    Mr. Dingell. Without objection. If it is the wish of the 
gentleman, that will be inserted in full form.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you. Mr. Secretary, we are always glad to 
have you here at the Energy and Commerce Committee. As you 
know, the agency that you are the Secretary of has a special 
place in my heart. I was a White House Fellow there. My son 
worked there until recently. And in 22 of the 24 years I have 
been in the Congress, I have focused on energy issues on this 
committee so I am always glad to have you, and we appreciate 
your service to the country, things that you tried to do to 
improve our energy security and our energy future of our great 
Nation. You are here specifically to talk about the budget of 
your agency. As we all know, you are responsible for the 
weapons programs for this country and those are a very high 
priority. You also have responsibility for our national 
laboratories. They are also a very high priority.
    In this new era of alternative energy there are several 
things in terms of the research areas that the department is 
responsible for, and we look forward to hearing about that. I 
am sure you are going to be asked by some of our colleagues 
about the situation with the FutureGen project, which I also 
have some questions about. I am not a big fan of the government 
telling the country what kind of energy sources and energy 
situations we have to do, so I did not vote for this Energy 
Bill which the President signed recently. I have always 
supported a voluntary market base policy instead of a mandatory 
policy. It is going to be interesting to me to see how we 
implement a policy where we tell the American people what kind 
of cars and trucks, if any, they get to drive, what kind of 
fuel, if they have a car or truck, they get to put in it, what 
kind of light fixtures they get to use in their homes, and even 
pre-empt state and local building codes in terms of any new 
construction so you may have some comments on that.
    I asked you out in the annex but somebody is going to ask 
you on the record how we are going to implement these 
alternative energy mandates when we don't have the alternative 
energy in America. We have got some ethanol mandates that are 
supposed to be me this spring that is just not there. And I 
know it is the EPA's decision whether to grant a waiver, but 
you may have comments on that. And of course we are going to 
listen to what you say on the budget with special emphasis on 
the loan guarantees for our new nuclear power plants. You have 
worked very hard on that, and I think you got a fairly 
innovative solution to that so we will ask you about that. We 
are glad to have you here and it is going to be an interesting 
morning but we do appreciate your service to your country.
    Secretary Bodman. Thank you, sir.
    Mr. Barton. Mr. Chairman, I yield back.
    Mr. Dingell. The time of the gentleman has expired. The 
chair advises now just for the assistance of the members, 
perhaps for the assistance of the chair, the Clerk and the 
counsel are going to assist the chair in maintaining a list of 
members, and they will advise the chair on members recognition 
and in what order. The members who will be recognized first are 
those who are present when the committee is called to order, 
and they will be recognized in the order of their seniority on 
the full committee. Second, members who arrived after the 
committee was called to order, those members will be recognized 
in the order that they arrived at the hearing but after all 
members who were present when the chair called the committee to 
order.
    Now the chair recognizes now the--the chair is looking for 
the subcommittee chair, who would be first, but he is not here, 
so the chair will recognize then the distinguished gentleman 
from Michigan, Mr. Upton, who is the ranking member of the 
subcommittee, for 3 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. I thank my chairman, and I also thank Mr. 
Boucher, chairman of the subcommittee, for holding this hearing 
today. As we look at the Department of Energy's 2009 budget 
proposal--I also want to congratulate and welcome my good 
friend, Secretary Bodman, a gentleman that I have had the great 
pleasure of working with over the last couple of years. I 
recognize also that you visited our district in Southwest 
Michigan this last August, and I look forward to continuing 
that close relationship. Now I can guess that perhaps some of 
my colleagues will use their opening statements to question to 
address what this Administration is doing to address global 
climate change.
    I expect some may criticize the Department of Energy or the 
White House for lagging behind Europe or not doing enough to 
address global warming, and I would like to launch a pre-
emptive strike by congratulating the Secretary for the great 
strides that DOE has taken in this area, and would note that 
from 2000 to 2005 the EU's CO<INF>2</INF> emissions actually 
increased by 50 percent more in the United States. I believe 
that solutions can be found in technology. Increasing funding 
for R&D and providing incentives for the new investment have 
been responsible for our successes this year, and I think that 
that record of success and the failures in Europe prove that 
very same model. I am pleased to see that this budget continues 
down the road of continuing to increase R&D. A realistic 
approach to insure that our Nation's energy security and to 
meet our future demand must include substantial investments in 
nuclear and clean coal, and I applaud your requested increases 
in funding for both the nuclear energy programs, as well a 
clean coal technology.
    Nuclear energy accounts for over 70 percent of our 0 
emissions power. It is not possible to cut our greenhouse gas 
emissions without increasing our supply of nuclear power, and 
additionally it is not prudent to turn our back on coal, and 
the budget recognizes those facts. And as this budget 
recognizes, it is imperative that we address nuclear fuel cycle 
issues including the 800-pound gorilla in the room, Yucca 
Mountain. We have been talking about a spent fuel repository at 
Yucca Mountain for years and years, and we have thrown billions 
of dollars at that problem. And while I support the funding in 
the budget for Yucca it is time for a change in strategy of our 
fuel cycle policies as well as funding.
    I was one of the original proponents for creating the Yucca 
repository, and I recognize that Yucca needs to be a component 
of our nuclear fuel policies but there is great promise as well 
in perhaps going back and readdressing the issue of recycling 
spent nuclear fuel. Through advanced recycling technologies 
that reduce the volume, heat, and toxicity of used nuclear 
fuels it is possible to separate the uranium from the used fuel 
to once again power commercial nuclear reactors, so I hope that 
we can perhaps look at that in the next year to readdress that. 
And, lastly, in conclusion as we debate an economic stimulus 
package to reignite our economy, we must not lose sight of the 
impact that energy plays in that effort. We will build on 
affordable energy as we move forward towards working on these 
incredibly complex issues. Let us all take note of the impact 
that energy has on American jobs in our economy. Mr. Chairman, 
I yield back the balance of my time which I see has expired.
    Mr. Dingell. The chair recognizes now the distinguished 
gentleman from Massachusetts, Mr. Markey, under the rules for 1 
minute.
    Mr. Markey. Mr. Chairman, I would like to waive my opening 
statement and preserve it for questions.
    Mr. Dingell. The gentleman waives his opening statement. 
The chair now recognizes the gentleman from New York, Mr. 
Towns, for 1 minute.

 OPENING STATEMENT OF HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Towns. Thank you very much, Mr. Chairman. Let me thank 
you and Ranking Member Barton for holding this very important 
hearing. With energy costs on the rise and increasing concerns 
about climate change and global warming, it is more important 
now than ever for us to work together in focusing on developing 
safe and clean energy alternatives, reducing greenhouse gas 
emissions, and improving energy efficiency. One of my primary 
concerns is over the drastic cuts to funding of the Low Income 
Home Energy Assistance Program, which helped many residents in 
my district to pay their heating bills. It is imperative that 
we set aside bipartisan differences in order to meet crucial 
energy goals and work together to develop an energy budget that 
reflects our priorities of increased energy efficiency, reduce 
reliance on foreign oil, and work towards a reduction in 
greenhouse gas emissions.
    Again, I thank you, Mr. Chairman, and Ranking Member Barton 
for bringing us together today and look forward to hearing from 
the witnesses. On that note, Mr. Chairman, I yield back.
    Mr. Dingell. The chair thanks the distinguished gentleman 
from New York. The chair recognizes now our good friend and 
colleague, Mr. Shimkus, for 1 minute.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I will be focusing on 
FutureGen. In the 2003 State of the Union, President Bush laid 
out a goal of co-producing electricity and hydrogen from a 
coal-fired power plant that would produce near zero emissions. 
Mattoon, Illinois was selected as the best site for FutureGen. 
The State of Illinois and the town of Mattoon worked extremely 
hard only to be crushed recently when the DOE announced their 
plan to restructure FutureGen and to cut it up into a series of 
smaller projects. The cruelest hoax was the letter from you, 
Mr. Secretary, on November 30, 2007, saying that the DOE's 
record of decision would be out by the end of 2007, yet the 
record of decision is nowhere in sight.
    My discussion with industry tells me this decision sets us 
back, not forward. I would like to submit the following thing 
for the record, Mr. Chairman.
    Mr. Dingell. Without objection, so ordered.
    Mr. Shimkus. Secretary Bodman's letter to me and the 
Illinois delegation dated November 30, 2007, letters from the 
Governors of West Virginia, Ohio, Michigan, Kentucky, Wyoming, 
Indiana, Wisconsin, and Pennsylvania in support of the 
FutureGen project, 50 plus pieces of correspondence from myself 
and fellow members of Congress to the White House, Department 
of Energy, EPA appropriators, governors, and other discussions 
on FutureGen, and finally a newspaper article from the Journal 
Register in Mattoon, Illinois requesting donations from local 
citizens. I yield back, Mr. Chairman.
    [The information appears at the conclusion of the record.]
    Mr. Dingell. Without objection, so ordered. The time of the 
gentleman has expired.
    [The prepared statement of Mr. Shimkus follows:]

    [GRAPHIC] [TIFF OMITTED] T9406.003
    
    [GRAPHIC] [TIFF OMITTED] T9406.004
    
    [GRAPHIC] [TIFF OMITTED] T9406.005
    
    Mr. Dingell. The chair recognizes now the gentleman from 
Texas, Mr. Green. Where is Mr. Green? The chair recognizes the 
distinguished gentlewoman from Colorado, Ms. DeGette, for 1 
minute.
    [The prepared statement of Mr. Green appears at the 
conclusion of the hearing.]

    OPENING STATEMENT OF DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman, and 
welcome, Mr. Secretary. I would like to spend my time this 
morning talking about the National Renewable Energy Laboratory, 
NREL, which is located right outside my congressional district 
in Colorado. NREL is the world's pre-eminent renewable energy 
and energy efficiency research facility and with oil prices 
approaching $100 a barrel, toxic greenhouse gas emissions 
increasing, and the mounting trade deficit exacerbated by our 
reliance on foreign oil, we would think that our Federal 
government would make it a priority to bolster the primary 
green energy research lab. Sadly, once again, the budget before 
us proposes to slash funding for NREL. When the Secretary 
appeared before this committee last year with the same 
recommended cuts the Secretary assured me that in fact these 
were not cuts. Fortunately, Congress injected about $100 
million into NREL in February, '07.
    And, Mr. Chairman, I was out at NREL last month. They are 
doing fabulous research with this money, and so I think rather 
than flat lining this budget we should increase the money so 
that we can have clean renewable energy. Thank you, Mr. 
Chairman.
    Mr. Dingell. The chair thanks the distinguished 
gentlewoman. The chair recognizes now our good friend and 
colleague from Nebraska, Mr. Terry, for 1 minute.
    Mr. Terry. I will waive my opening.
    Mr. Dingell. The gentleman waives. He will get his 1 minute 
later. The chair recognizes the distinguished gentleman from 
Florida, Mr. Stearns, for 1 minute.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman. Let me thank you and 
Ranking Member Barton for putting this hearing on. It is always 
good to have the Secretary here to hear first hand. My only 
comment is I would like to give a positive note here. I want to 
commend him and the Administration. Their proposal to double 
the strategic petroleum reserve to 1.5 million barrels and to 
continue the advance energy initiative as part of an overall 
goal of reducing America's dependence on foreign sources of 
energy through diversification of our Nation's energy supply. I 
frankly think these initiatives combined with further research 
in a bio-mass and especially ethanol can help bolster America's 
national security and economic development.
    Also, Mr. Secretary, I am concerned with the DOE's 
announcement regarding a major restructuring of the FutureGen 
project, Mr. Shimkus had mentioned that earlier, which could 
possibly set back this important initiative so I share with him 
my concern but I look forward to your testimony.
    Mr. Dingell. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentlewoman from 
California, Ms. Solis, for 1 minute.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here this morning with us. In a time of 
economic downturn the Administration's budget cuts is 
attempting in my opinion to go in the wrong direction. And I 
say that because while we are trying to assist many of our low 
income families in this tight situation where we see sky 
rocketing gas prices and electricity bills, I don't see the 
kind of sensitivity that you would think you would see from 
this particular department. And I am very concerned because in 
California the costs of energy have gone up tremendously for 
many, many working families, and the result is that we continue 
to see in your proposal a reduction in weatherization programs, 
in the LIHEAP program, and also in the energy efficiency 
programs that you have offered in the past.
    And we did pass a major Energy Bill here through this 
committee and on the floor of the Congress that was signed into 
law, and my concern is that we provide not just hope but that 
we provide funding for many of the programs that will help 
continue to have our families with some better standard of 
living there but also to keep jobs in mind because many of the 
programs that you are proposing to cut will also impact those 
individuals who are on the verge of losing their jobs. In my 
district we have employment that goes up towards 7 percent and 
higher, and in many cases it is unreported. So I would just ask 
you to take another look and maybe we can work with you on a 
bipartisan effort to reach a better agreement on these proposed 
cuts. And I yield back the balance of my time.
    Mr. Dingell. The chair thanks the distinguished 
gentlewoman. The chair recognizes now the distinguished 
gentleman from Pennsylvania, Mr. Murphy, 1 minute.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. Thank you for being 
here, Secretary Bodman. As you know, America's energy demands 
are going to double by 2050 and we are going to need coal, 
clean coal, for energy security to meet those needs. I am 
pleased with the 26 percent increase for clean coal research 
but let us keep in mind there are about 400 coal plants in the 
U.S. and many of them are old and need to have scrubbers and 
pollution equipment replaced so we are going to need to build 
about 800 new coal plants by 2050, 400 to replace the old ones, 
400 to meet the new demands. This is twice as many plants that 
have been built since the start of the industrial revolution, 
and this means starting in 2010 we are going to need to open up 
a new coal-fired power plant every 2-1/2 weeks. I hope that 
this Administration and you will continue to push for the 
funding we desperately need to make sure we take the emissions 
out of coal. We have got to have zero emissions coal if we are 
going to meet our needs, if we are going to compete, if we are 
going to rebuild America and also let us keep our efforts for 
clean nuclear energy as well.
    While the rest of the world is doing mass amounts of 
pollution and beating us in so many areas of manufacturing, we 
have to make sure that our consumers and our employers are 
having their energy demands met in a clean and efficient way, 
and I thank you, Mr. Chairman.
    Mr. Dingell. The chair thanks the distinguished gentleman. 
The chair recognizes now the distinguished gentleman from 
Washington State, Mr. Inslee, for 1 minute.
    Mr. Inslee. I will waive and reserve.
    Mr. Dingell. The gentleman reserves.
    The chair recognizes now our good friend and colleague, Mr. 
Matheson, of Utah.
    Mr. Matheson. Mr. Chairman, I will also waive and reserve 
for later.
    Mr. Dingell. The gentleman waives.
    The chair recognizes now the distinguished gentleman from 
Georgia, Mr. Barrow.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here today. I am pleased to note that in 
the budget that has been submitted there is a proposed increase 
in the science budget of some 19 plus percent, and I appreciate 
that. I support that. I want to encourage your efforts in that 
area. I also note at the same time a proposed cut on the order 
of 27 percent in the Office of Energy Efficiency and Renewable 
Energy, and it would help us in responding to that if you could 
give us some sort of explanation of what your thinking is. So I 
would ask your staff, if you would, please, to prepare us 
something in writing that would give us a statement of your 
reasons for that. It can be as long or as short as you want so 
long as it is comprehensive and gives us a good understanding 
of what your reasoning is.
    Also, back to the research. The Savannah River Ecology Lab 
is virtually the only lab that has been engaged in basic 
research for the last 50 years at either of our national energy 
parks, so what I want to do is I want to have an explanation 
from you all as to why it got totaled zeroed out. It will help 
us going into the upcoming appropriations process. If you call 
could give us a statement within the next week of what your 
reasoning was in zeroing out and defunding that part of that 
laboratory. Thank you. I yield back.
    Mr. Dingell. The time of the gentleman has expired. The 
chair recognizes the distinguished gentlewoman from California, 
Ms. Capps, for 1 minute.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Capps. Thank you, Chairman Dingell. I have been 
evaluating this budget proposal, and as I have I can't help but 
wonder exactly what the President's priorities are. For 
example, the budget provided a prime opportunity for him to 
respond to our Nation's energy priorities, but instead of 
investing in programs to increase the efficiency and reduce our 
dependence on fossil fuels it once again proposes to increase 
taxpayer giveaways to those kinds of industries we know to be 
dirty and dangerous like coal, oil, and nuclear. I am 
especially disappointed by the proposed 27 percent decrease 
from the current funding levels for the Office of Energy 
Efficiency and renewable energy and zeroing out the funding for 
weatherization assistance. I had hoped the President would have 
taken Congress' strong support for increasing these programs 
last year to put forward an equally strong request but that 
does not appear to be the case.
    Myself, I think this is a huge mistake. Now is not the time 
to be rolling back investments and programs that make energy 
bills more affordable and create high wage jobs so I look 
forward to working with my colleagues over the coming months to 
make significant improvements to the department's budget, and I 
appreciate again very much the chairman holding the hearing 
today and our Secretary for being before us. I hope it will 
allow us to refocus our priorities and talk about ways we can 
improve our energy policy. I yield back, Mr. Chairman.
    Mr. Dingell. The time of the gentlewoman has expired. The 
chair recognizes now our distinguished colleague, Mr. 
Butterfield, for 1 minute.
    Mr. Butterfield. Thank you very much, Mr. Chairman, and I 
too want to thank the Secretary for coming forward today and 
sharing with us your vision and your testimony. I have a very 
long opening statement, and 1 minute is not sufficient for me 
to do all that I need to do, and so--
    Mr. Dingell. Without objection the whole statement will be 
inserted in the record.
    Mr. Butterfield. Yes. That was going to be my request, Mr. 
Chairman. I am going to submit my statement for the record and 
simply say publicly that I am very disappointed with the 
weatherization decreases that we are experiencing and the 
LIHEAP decrease. That is unacceptable. I represent a poor 
district and my people are suffering. We need to revisit those 
reductions. I am going to submit my statement for the record. I 
yield back.
    [The prepared statement of Mr. Butterfield appears at the 
conclusion of the hearing.]
    Mr. Dingell. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentleman from Maine, 
Mr. Allen, for 1 minute.
    Mr. Allen. Mr. Chairman, I will waive opening and reserve.
    Mr. Dingell. The gentleman waives.
    The chair recognizes now our good friend and colleague from 
Illinois, Mr. Rush, for 1 minute.
    Mr. Rush. Mr. Chairman, I will waive and reserve.
    Mr. Dingell. The gentleman waives.
    The chair recognizes now the gentlewoman from Illinois, Ms. 
Schakowsky, for 1 minute.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I would like to 
use my time to address the incredible decision last week by the 
Department of Energy to renege on its commitment to build and 
operate the world's first coal-fueled near zero emissions power 
plant in Mattoon, Illinois. During his State of the Union 
address in 2003, the President announced his intention to build 
the FutureGen plant. As recently as November 30 this year this 
project remained on track. As Secretary Bodman wrote to my 
colleague, Representative Tim Johnson from Illinois, that the 
Department of Energy was committed to selecting a site by the 
``end of December, 2007.'' On December 18, Mattoon, Illinois 
was officially awarded the FutureGen project. Over the last 5 
years the City of Mattoon and the State of Illinois has worked 
tirelessly and spent millions of dollars to secure the 
FutureGen project.
    You can understand, Mr. Secretary, why my colleagues from 
the Illinois delegation and I were outraged to hear you tell us 
last week that the Department of Energy was going to renege on 
their agreement to build the plant at Mattoon. To be frank, the 
State of Illinois believes that a bait and switch plan has been 
pulled, and it is unbelievable that while the President was 
reiterating his commitment to invest in ``new technologies that 
can produce coal power, that can produce power from coal with 
significantly lower carbon emissions'' during last week's State 
of the Union address you were acting to jettison FutureGen. The 
FutureGen plant in Mattoon represented the President's 
commitment. You need to explain, Mr. Secretary, the Department 
of Energy's 11th hour decision to abandon Mattoon, its 
citizens, and delay the FutureGen project indefinitely when the 
need for the technology is so clear. Thank you, Mr. Chairman, 
and I yield back.
    Mr. Dingell. The time of the gentlewoman has expired. The 
chair recognizes our good friend and colleague from Louisiana, 
Mr. Melancon, for 1 minute. The gentleman waives.
    The chair inquires are there other members desiring 
recognition at this time? The chair hears none. The chair 
apologizes to Mr. Secretary for the time that it has taken us 
to complete these but it is the right of the members, and 
seeing that it is done fairly and properly is fairly hard for 
the chair but it also causes some burdens for you. With our 
thanks then, Mr. Secretary, you are welcome for such statement 
as you choose to give the committee.

 STATEMENT OF SAMUEL W. BODMAN, SECRETARY, U.S. DEPARTMENT OF 
                             ENERGY

    Secretary Bodman. Mr. Chairman, Mr. Barton, members of the 
committee, I want to thank you for giving me the opportunity to 
appear before you for what is now the fourth time. I think it 
is safe to say that the goals of the department as represented 
in the '09 budget are largely unchanged from our budget goals 
in previous years. This budget request provides us in my 
judgment the resources that are needed to continue to move 
forward on our 5 central missions promoting and enhancing 
energy security, nuclear security, scientific discovery and 
innovation, environmental responsibility, and management 
excellence. Since 2001 this Administration has invested more 
than $180 billion in the Department of Energy and its programs. 
These investments have been used to address the growing demand 
for affordable, clean, and reliable energy. They have helped 
safeguard our national security and have enabled scientific 
research leading to significant improvements in the quality of 
life and the health of the American people.
    The department's fiscal year 2009 request in the amount of 
$25 billion was developed with the need to continue these 
activities in mind and to address the energy challenges that 
confront us daily. An investment of this size allows us to 
fulfill our central missions as well as advance the goals of 
the President's American competitiveness initiative to insure 
U.S. technological competitiveness and economic security. It 
also allows us to continue our progress toward the goals of the 
President's advanced energy initiative accelerating the 
research, development, and deployment of clean alternative 
energy technology. The Department of Energy is responsible for 
promoting America's energy security. We encourage the 
development of reliable, clean, and affordable energy supplies, 
and we strengthen U.S. competitiveness by leading in innovation 
and scientific discovery.
    At the same time we continue to insure the security of the 
nuclear stockpile and we reclaim and restore the sites that are 
the Nation's environmental legacy. All of this is done under a 
rubric of sound management consistent with the President's 
management agenda to improve performance and accountability. 
This budget request also reflects our concerns about America's 
energy future. The projected growth in energy demand is a major 
challenge for us all. It is a challenge that must be met with 
responsible action. Global demand will continue to grow. We 
cannot depend solely on hydrocarbons to meet it. This is a 
problem for all nations, energy producers, and consumers alike. 
I believe, therefore, that it is vital that the United States 
pursue policies that enhance global energy security, not just 
our own. We need new energy options, cleaner, more efficient 
technologies, and alternative fuels, and we just support fully 
the research and innovation necessary for their development.
    We must diversify our energy supplies, diversity our energy 
suppliers, and diversify established and secure additional 
energy supply routes. This budget document should also be 
viewed as a road map showing the future course of America's 
energy security. This course will not in my judgment be an easy 
one but it is necessary. These efforts will require a sustained 
commitment on the part of government, strong private sector 
investment, and strategic collaboration between the government, 
the private sector, and the research community including 
academia. Our goal is to foster continued economic growth and 
promote a sustainable energy future. Mr. Chairman, I believe 
that the committee has a copy of my written statement, which I 
now ask be included in the record so that in the interest of 
time we may move to any questions that you or other members of 
your committee may have about the department's budget request. 
Thank you, sir.
    Mr. Dingell. Without objection, it is so ordered.
    [The prepared statement of Mr. Bodman follows:]

    [GRAPHIC] [TIFF OMITTED] T9406.070
    
    [GRAPHIC] [TIFF OMITTED] T9406.071
    
    [GRAPHIC] [TIFF OMITTED] T9406.072
    
    [GRAPHIC] [TIFF OMITTED] T9406.073
    
    [GRAPHIC] [TIFF OMITTED] T9406.074
    
    [GRAPHIC] [TIFF OMITTED] T9406.075
    
    [GRAPHIC] [TIFF OMITTED] T9406.076
    
    [GRAPHIC] [TIFF OMITTED] T9406.077
    
    [GRAPHIC] [TIFF OMITTED] T9406.078
    
    [GRAPHIC] [TIFF OMITTED] T9406.079
    
    [GRAPHIC] [TIFF OMITTED] T9406.080
    
    [GRAPHIC] [TIFF OMITTED] T9406.081
    
    [GRAPHIC] [TIFF OMITTED] T9406.082
    
    [GRAPHIC] [TIFF OMITTED] T9406.083
    
    [GRAPHIC] [TIFF OMITTED] T9406.084
    
    [GRAPHIC] [TIFF OMITTED] T9406.085
    
    [GRAPHIC] [TIFF OMITTED] T9406.086
    
    [GRAPHIC] [TIFF OMITTED] T9406.087
    
    [GRAPHIC] [TIFF OMITTED] T9406.088
    
    Mr. Dingell. Does that complete your presentation?
    Secretary Bodman. Yes, it does, sir.
    Mr. Dingell. We thank you. The chair is going to recognize 
members under the same rules that we did before commencing with 
our good friend from Texas, Mr. Barton. The gentleman is 
recognized for 5 minutes. Mr. Barton.
    Mr. Barton. Thank you. Thank you, Mr. Chairman. Mr. 
Secretary, last year we had a little bit of a tiff with the 
Administration over what a loan guarantee for the new nuclear 
power plants meant, what was 80 percent of 80 percent. As you 
remember the O&B, it said that 80 percent was really 80 percent 
of 80 percent, which is 64 percent, and simple people like me 
thought 64 percent wasn't the same as 80 percent. We were kind 
of concerned about that. Could you explain what has happened 
and what the solution is and just what the status of that 
program is right now?
    Secretary Bodman. Yes, Mr. Barton. We, first of all, had 
decided that 80 percent is the right number and that that is--
--
    Mr. Barton. That is a good step.
    Secretary Bodman. That is the first step. Secondly, you may 
recall that we had over 100 applicants that submitted 
applications for loan guarantees. We have selected 16 of those 
and had meetings with each of the companies that are involved, 
and we expect applications to arrive some time during the next 
couple of months, some time in February and March. I would 
expect that we would start to see some loan guarantees issued 
during the balance of this year. It is going to take some time 
to work through it. Additionally, there will be--we had ignored 
work on nuclear power in the initial applications and now with 
the Congress' generosity in providing for some $38 billion 
worth of loan guarantees, we will be in a position to issue, I 
would think, within let us say in the spring time a 
solicitation for both renewable energy and nuclear power, and 
we would be in a position if Congress allows us to extend the 
time frame over which we would have the monies available for 
loan guarantees. We are not asking for a change in the amount 
but merely----
    Mr. Barton. Is there a cap on any specific proposal?
    Secretary Bodman. There is a cap. I think we have $18 
billion worth that we are allowed to grant to utilities, $2 
billion to the fraud end, if you will, of the operation, that 
is to say to the enrichment companies that are involved, and 
the balance, I believe, is renewable energy----
    Mr. Barton. Within a specific category if I am a company is 
there a limit on how much a company----
    Secretary Bodman. Oh, a company?
    Mr. Barton [continuing]. A request can be for.
    Secretary Bodman. No, but we will have to look at--we got 
$18 billion, let us say for nuclear power. Nuclear power plants 
have become much more expensive. I think it unlikely that we 
are going to be able to offer the loan guarantees in the amount 
of 80 percent. If it is a $10 billion project that would mean 
you are going to have 2, and I think it is going to be a tough 
decision to make so I would rather have 4 at 40 percent.
    Mr. Barton. You zeroed out funding for oil and gas, R&D. I 
kind of understand that for the big companies but there is a 
section in the Energy Policy Act of 2005, I think it is Section 
999, it may not be but I think that is the section, it is for 
small projects and it is a guaranteed $50 million a year 
program. It is funded from money from the Federal royalty 
program. It is a loan program that people get a grant and have 
to repay it. The committee that is making these guarantees met 
in Houston last week, 32-1/2 percent of the program goes to 
things like hard to get natural gas, coal methane gas. It is a 
program that was proposed by a gentleman named Walter Mise in 
Clayburn, Texas, who just passed away. In fact, I was at his 
funeral last week. You zeroed it out last year. We put the 
money back in.
    Would you go back and take a look at that because we are 
not talking about funding Exxon Mobile. We are talking about 
loans to really small operators that go out and try to get 
primarily natural gas but some oil that is hard to get. And let 
me give you an example. In my district right now there is a 
natural gas play called the Barnett Shale. It is driven about 
8,000 feet to 10,000 feet using horizontal drilling and 
hydraulic technology that didn't exist 10 years ago. That 
technology was partially funded by the Department of Energy in 
the last 20 years. That one field is going to produce three-
quarters of a trillion cubic feet of natural gas this year. 
That is about 4 percent of domestic supply. It wouldn't have 
been possible 10 or 15 years ago because that technology wasn't 
in existence. And all of that field is small guys, little guys, 
so we are not talking about funding Exxon Mobil or Chevron. We 
are talking about a very small program. I am sure we are going 
to reinstitute it. I just ask you to take another look at it 
because long term it will have a pay-off and it will actually 
make money for the Treasury.
    Secretary Bodman. I believe, Mr. Barton, that program which 
is there because of your interest and Mr. Hall's interest and 
we are--that program I believe is the law of the land.
    Mr. Barton. Well, it is the law but you got to fund it.
    Secretary Bodman. Well, it is funded, I believe.
    Mr. Barton. Okay. Well, I hope so.
    Secretary Bodman. I believe it is funded.
    Mr. Barton. My time is expired. I appreciate you being 
here, Mr. Secretary. Thank you, Mr. Chairman, for your 
courtesy.
    Mr. Dingell. The chair thanks the gentleman. Mr. Bodman, I 
want to make three statements. Tell me which of them you 
disagree with. Do you agree that the Federal Scientific and 
Industrial Center for Nuclear Machine Building in Russia has 
been doing work on the Iran Bushehr reactor? Do you agree that 
the Scientific Research Institute of Measuring Systems has also 
been doing work on the Bushehr reactor in Iran, and do you 
agree that the department has approved funding and funding 
projects at these two institutes?
    Secretary Bodman. Mr. Chairman--
    Mr. Dingell. It is a very simple yes or no.
    Secretary Bodman. Well, if I may, sir, I did receive a 
letter from you yesterday on this subject that you are aware 
of.
    Mr. Dingell. Yes.
    Secretary Bodman. So I wanted to acknowledge the fact that 
that was received. Secondly, I have not had time to fully 
investigate in the last 15 hours since I received the letter 
all of the issues that are enumerated in your letter. But I 
have directed the principal deputy of the NNSA, Bill 
Ostendorff, to look into those questions and to report back to 
me and then he and I will report to you. I am told that the 
projects that are cited in the committee's letter or any of the 
department's scientific engagement projects are not enhancing 
the Iranian nuclear program. All the projects under the 
scientific engagement program in question are vetted through a 
very rigorous interagency effort and are fully consistent with 
U.S. law and policy.
    All of the contracts are of a pay for performance nature 
and that is to say once a product is achieved we then will pay 
the money. Regarding Bushehr, the U.S. has been in dialogue 
with Russia for many years relating to the proliferation issues 
associated with nuclear cooperation involving Iran. The reactor 
in Bushehr will be under IAEA safeguards. It is a commercial 
transaction, and Russia has agreed to long-term nuclear fuel 
supply program and a take back program.
    Mr. Dingell. How, Mr. Secretary, do you then rhyme that 
statement with what the State Department said when they said 
this. Iran uses Bushehr as a cover and protection for obtaining 
sensitive technology to advance its nuclear weapons program.
    Secretary Bodman. I have no doubt that there are 
inconsistencies in the statement. I will tell you what I 
believe to be true, and these are things that I have been told 
over the last 15 hours since I received your letter.
    Mr. Dingell. Well, DOE has provided this committee with 
documents, has provided same to GAO, which has provided them to 
us which indicates that these projects at these institutes has 
been funded. Now you are aware of the fact that dollars are 
fungible, is that right?
    Secretary Bodman. I am aware of the fact that dollars are 
fungible.
    Mr. Dingell. You get dollars in Russia, and they can move 
the dollars around to suit their needs. Now let me ask you this 
question. Are these grants which you are making solely to the 
scientists or are they to the scientists and to the institute 
or are they for--is any part of them for overhead?
    Secretary Bodman. They are contracts that are paid for 
performance, sir, so we pay for a product to be created by the 
scientist so we identify the scientist. For example, one of 
the--
    Mr. Dingell. Mr. Secretary, you are being very helpful but 
understand I have 54 seconds left, and what I am trying to find 
out is when DOE gives contracts they give them for 2 purposes. 
One, to support the particular goal or objective of the 
contract, and, 2, to pay the overhead that is associated with 
it. Are they paying just the cost for a contract or are they 
paying in fact the contract--the overhead for the operation of 
the institute?
    Secretary Bodman. I truly don't know, Mr. Dingell.
    Mr. Dingell. I think that is an important question. Mr. 
Secretary, we will be sending you other correspondence on this 
particular matter. I would like to have your comments about 
this in greater detail but I note that my time has expired and 
perhaps on the second time around I can recognize myself for 
further questions. The chair now recognizes the distinguished 
gentleman from Michigan, Mr. Upton, for 5 minutes.
    Mr. Upton. I think my chairman. Mr. Secretary, I noted in 
my opening statement, I talked a little bit about nuclear 
power, and that nuclear reactions today generate 20 percent of 
America's electricity, yet we know that our demand is going to 
grow by 50 percent by the year 2030. To maintain that 20 
percent nuclear share is going to require that we are going to 
need to build perhaps as many as 45 or 50 new nuclear reactors 
by that time. Do you think that the funding in your budget that 
was submitted by the President this last week along with 
existing regulatory policies will allow us to reach that 
minimum level of 45 to 50 nuclear reactors by the year 2030?
    Secretary Bodman. I believe that the effort that is 
anticipated by the budget that has been submitted will put us 
into a position to see nuclear power used not only in this 
country but throughout the world, and I am very hopeful about 
that. As to what will happen over the next 30 years, I would be 
foolish to try to estimate that or agree with the proposition 
so it would be--I hope that it will lead to that. I certainly 
think that your forecast is a reasonable one but I wouldn't 
want to say that there is a linkage between this budget and 
that forecast.
    Mr. Upton. I know that the level of funding for Yucca 
seemed to be a flat level in essence in '09 the same as it what 
it was in '08 and in past years. Does the department support 
taking the nuclear waste fund for Yucca off budget, an issue 
that Mr. Towns and I on a bipartisan basis have introduced?
    Secretary Bodman. Yeah, I think that the issue of the 
nuclear waste fund is a major challenge. What we are committed 
to do in the Energy Department is to get a license application 
that is scientifically sound filed with the Nuclear Regulatory 
Commission some time this year.
    Mr. Upton. And that is the same time table that you 
referenced last year when you testified on the budget as well.
    Secretary Bodman. I said last year that we were going to do 
it in the middle of the year in May-June, and I think that time 
table is going to be more questionable now because of the 
reduction we have for I think almost $500 million, and that has 
been reduced by $120 million so it is back to the 380 or so, 
and so we are now looking at what the implications of that are 
but I am hopeful that we will be successful in that endeavor. 
That is all I wanted to say about that. But in order to get a 
serious effort, in order to comply with the 2017 time frame 
that was when this budget was to have been completed, I think 
that is now off the table, the 2017 date, and we are going to 
have to start spending between $1 billion and $2 billion a year 
on Yucca Mountain if we are to be successful in accomplishing 
what needs to be accomplished, not $300 million or $400 
million.
    Mr. Upton. So taking the trust fund off budget would help 
us get to that goal.
    Secretary Bodman. Yes, sir, it would.
    Mr. Upton. Where are we in terms of re-examining the 
recycling of nuclear fuel, reprocessing nuclear fuel? What do 
we need to do here to try and help open up that debate again?
    Secretary Bodman. Well, the proposed budget which has got 
the advanced fuel cycle initiative of some $300 million, which 
is an increase of about $130 million over that which was a lot 
last year, that is where that is. That is where GNEP, the 
Global Nuclear Energy Partnership, funding, that is what is 
intended to see the technical work done that would start. We 
have already filed an environmental impact statement about the 
prospects of putting a unit or research facility in any--I 
think there are 8 different communities that have applied for 
it so we are quite serious about it, and we hope that Congress 
agrees with our seriousness and the need for it.
    Mr. Upton. My time is expiring so I will yield back. Thank 
you. Thank you, Mr. Secretary. I appreciate your service.
    Secretary Bodman. Thank you.
    Mr. Dingell. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentleman from 
Michigan--rather from New York, Mr. Towns, for 5 minutes.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me thank 
you, Mr. Secretary, for coming up. As I travel around the 
country when I talk to seniors they are concerned about the 
heating bills, and many of them tell stories that they have to 
make a decision whether to buy their medicine or whether they 
buy food or whether they pay their heating bill. I notice that 
this budget has cut the Low Income Home Energy Assistance 
Program by 22 percent. How do you arrive at this number?
    Secretary Bodman. First of all, sir, that is the LIHEAP 
proposal, I believe, the low income heating assistance plan.
    Mr. Towns. That is correct.
    Secretary Bodman. That is in the Department of Health and 
Human Services, HHS, not in the Energy Department, so I can't--
I would be happy to defend anything that we are responsible for 
but that is not one of them.
    Mr. Towns. Let me ask you this. Are you willing to speak 
out against it?
    Secretary Bodman. Well, I think that, look, there are 
issues related to all of the budgets. These are very tough 
times in terms of the pressures that are on the various 
secretaries to create budgets. I don't happen to know what all 
the demands are in HHS so I can't speak to that. But I can 
speak about the weatherization plan which has been zeroed out 
on our budget. It is a drop of, you mentioned 22 percent, this 
is a drop of 100 percent that we are proposing that would 
affect low income residents. And the reason for that is that 
that plan has existed in what we call EERE, Energy Efficiency 
and Renewable Energy department, which is largely an applied 
research department. That is what they do. And it is something 
that they have had great success over the years of investing 
money so for every dollar that goes into weatherization it is a 
dollar that is not going into the creation of new codes for 
construction.
    It is a dollar that is not going into the support of new 
appliances or the so-called Energy Star program. So we do a lot 
of things that help low income people and these are much higher 
rates of return on the investment that we get by pointing it to 
work as I described.
    Mr. Towns. I think both are very important. Let me just 
move along. My time is running. I notice in the budget proposal 
that there are also cuts in funding for renewable technology 
development of hydrogen, solar energy, and water power. Why?
    Secretary Bodman. Well, the answers in each are different. 
Solar energy, the reduction is not a reduction over that which 
we asked for last year. We were blessed with the fact that 
Congress elected to give us more money last year than we asked 
for. So what we have asked for is an increase over that which 
we asked for last year which is I think a modest decrease over 
the amount that was this year. Water power, I think, is that 
one of your questions?
    Mr. Towns. Yes, water power. Yes, it is.
    Secretary Bodman. Water power, we were granted I think $10 
million last year and we have put in--we still haven't spent 
the money because it came in--it didn't come in until the 
continuing resolution was passed, and we now have the $10 
million and we will be spending that plus I think it is $3 
million that we are asking for in the 2009 budget and so we 
will have $13 million spent on doing a survey of where the 
technology is and does it make sense for our department to move 
forward in that regard.
    Mr. Towns. It seems to me that we should continue 
researching safe and clean alternative fuel sources so that we 
may reduce dependence on foreign oil and of course--
    Secretary Bodman. I agree with that, sir.
    Mr. Towns. You agree with that?
    Secretary Bodman. Yes, sir.
    Mr. Towns. I am happy that we agree on that, and I hope 
that you will also--I would like to talk further with you 
because I understand you are saying that it has--it is another 
department but your influence is still there and it could be 
helpful because I really think that what is happening with 
that--I just think low income people are just really, really 
being harmed in this budget, and I think that we should try to 
do whatever we can to fix it. So, Mr. Secretary, I thank you 
very much for coming, and I hope that you will join me on 
working on that.
    Secretary Bodman. Thank you, sir.
    Mr. Dingell. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentleman from Illinois, 
Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Mr. Secretary, I am 
going to talk, hopefully get through 3 issues, FutureGen 
related, delay cost, and communication issues. First on delay, 
we need zero emission clean coal now. Everyone agrees with 
that. Your new plan is--it is felt that your new plan in 
rescoping will not speed up the process but will delay the 
process by conservatively 3 years based upon past performance 
on government, probably 4 to 5 years. How do you respond to 
this line of questioning that by rescoping we actually delay 
the onset of clean coal technology?
    Secretary Bodman. I don't believe that is the case. I 
believe that we are going to be in a position, Mr. Shimkus, to 
fund a variety of approaches. That is what the goal is. And we 
are in the process of doing a solicitation of interest among 
utilities, and we are hopeful that we will be in a position to 
fund, as I said, a variety of capture and sequestration 
efforts. Carbon capture and sequestration, CCS, is a 
requirement. I agree with you in terms of the use, the more 
broad use of coal in America. That is why we have increased our 
R&D budget by a sizable amount of $650 million.
    Mr. Shimkus. Mr. Secretary, if we can stay on the alliance 
of FutureGen and just the alliance proposal. I understand the 
answer. I would say in my discussions, and I am discussing with 
industry probably as much as the department is, there is not an 
immediate stampede to accept this rescoping of the project. I 
think a lot of problems is the carbon capture sequestration, 
the liability aspects. They are big concerns. And I think it is 
credible to say that what you are proposing is going to move us 
quicker. There are a lot of people that think it is going to 
delay us.
    I want to move to cost real quick. The alliance has 
countered with a response saying no new dollars over what was 
originally agreed to. The new hold up is debt financing at 
least from the energy. DOE clean coal projects routinely 
involve financing. It is common practice for commercial plants 
to be majority financed, often up to 80 percent financing. Why 
is the department balking at the alliance's proposal to use 
highly limited financing as a tool to manage cash flow and to 
deal with project uncertainties?
    Secretary Bodman. This budget which calls for or their 
proposal which calls for our equally sparing or sharing in the 
cost overruns which I believe will occur, and I believe they 
believe will occur.
    Mr. Shimkus. But would you accept the premise that DOE 
routinely allows financing on clean coal projects? Do you not--
    Secretary Bodman. I do. I do acknowledge that. But this is 
a research project, sir.
    Mr. Shimkus. I understand. That is where we agree to 
disagree and that is the problem with the proponents of moving 
forward as scoped versus Department of Energy and we need to 
get this on the record. Let me finish. I only have a minute and 
16 seconds left. I want to talk about communication aspects, 
and you are fully aware these have been raised by many members 
of the Illinois delegation, and I think members of the Texas 
delegation would be raising the same concerns if Texas would 
have been sited. You know what I am talking about. Here is the 
letter of November 30, 2007, saying notice of the EIS 
availability was published in the Federal Register. We are 
working to complete the process and issue the record of 
decision. This was a mistake, Mr. Secretary, for you to sign 
this letter.
    Secretary Bodman. I think that is probably right but I 
signed that letter at that time because I believed in the 
alliance and I believed that we had a deal with the alliance, 
and it turned out that we didn't. Well, I have talked with both 
you all and the alliance, and you guys are as far apart of ever 
coming to a deal that I have ever seen two groups. I have seen 
Republicans and Democrats closer than DOE and the alliance.
    Mr. Shimkus. The last thing has to do with the EIS, the 
environmental impact statement, and on the summary on page S-4 
DOE proposes to provide--this is November, 2007. We are as 
close to any date of a publication right now to being timely as 
any Federal document that people will quote. And here in this 
document we are saying DOE proposes to provide financial 
assistance to the alliance to plan, design, construct, operate 
the FutureGen project. DOE has identified 4 reasonable 
alternative sites and will determine which sites, if any, are 
acceptable to DOE to host a FutureGen project. Not projects, 
project, the 4 sites, and we know what they are. And this thing 
along with this, and I think 4 other comparable size documents 
cost Federal taxpayers about $10 million, and the question is 
for what?
    And this is also the communication problem. We have this 
out in November. Eleven days later the alliance wants to make 
an announcement. You guys say hold off. The people of Mattoon 
and all the other places are left high and dry. That is the 
emotional problem that we in Illinois have. Thank you, Mr. 
Chairman.
    Mr. Dingell. The time of the gentleman has expired. The 
chair recognizes now the distinguished gentlewoman from 
Colorado, Ms. DeGette, for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. First of 
all, Mr. Secretary, I want to make an apology and correction in 
my opening statement because in fact the agency's budget is not 
flat lined but there is a 22.27 percent decrease in the budget 
over the congressional appropriation from last year. So it has 
not decreased from the Administration's request but the 
congressional appropriation. And that is what I want to talk to 
you about today because it seems to me with this Nation's new 
commitment to renewable energy and conservation we should 
really be making a renewed commitment to NREL. And as I said in 
my opening statement, I was just out there a few weeks ago and 
they are doing fabulous work. And so I would like to ask you is 
it true that in the fiscal year 2009 Department of Energy 
budget NREL funding is cut from the appropriation from Congress 
of $293 million to $228 million for fiscal year 2009.
    Secretary Bodman. What is at work here is the fact that 
when we do a budget for any of our laboratories, but let us 
pick NREL, when we do a budget we budget for what we know will 
be spent in support of that laboratory. We then have other 
budget categories that within the EERE activity and those 
monies end up getting spent at NREL.
    Ms. DeGette. Well, you know, this is not exactly responsive 
to my question.
    Secretary Bodman. Well, if I may, Congresswoman, in 2007 we 
had $171 million in the equivalent of what you are reading 
there and we ended up spending $314 million.
    Ms. DeGette. Right, but if you want to talk about the EERE 
budget which is one of the sources of funding for NREL--
    Secretary Bodman. Right.
    Ms. DeGette. Now in your proposal this year it is being 
slashed from $1.72 billion to $1.26 billion, that particular 
account, so it is hard to see under the Administration's budget 
how we are going to increase funding for NREL if you are 
cutting that budget by a figure of 27.1 percent.
    Secretary Bodman. NREL had in 2008 in the LAMP table, which 
is what the equivalent of that figure of $165 million in 2008. 
This year it is $210 million. So we have seen a sizable 
increase. Last year we ended up with $277 million being spent 
at NREL, and so you and I are working at different figures. 
That is all I am telling you.
    Ms. DeGette. But it seems to me what happens, and every 
year you have been here, Mr. Secretary, we talk about this, it 
seems to me what happens is the Administration requests a 
reduction or flat line and then Congress appropriates more so 
in the end then you can come back in and say, well, NREL had 
more but that is because Congress puts that money in.
    Secretary Bodman. With all due respect, ma'am, it is not 
all due with respect to Congress. Some parts of it are for sure 
but also there are funds within EERE that get spent at NREL 
that are not located in that table in that figure.
    Ms. DeGette. Okay. Well, let us talk about a few of the 
other ones in the fiscal year 2009 budget. Let us talk about 
solar energy, which is cut 7.3 in the Administration's budget. 
Hydrogen is cut 30.7 percent. EERE facilities and 
infrastructure is cut 81.6 percent, and weatherization is 
eliminated altogether, but at the same time in the budget I see 
increases for funding for fossil energy research and 
development, increases for coal, increases for nuclear, and for 
department administration and public affairs a 1.32 percent 
increase. So I guess that is what some of us are concerned 
about in looking at the overall budget. It seems that the 
Administration is continuing with its traditional energy 
approach and relying on Congress to look at alternatives and 
renewables. Would you disagree with that statement?
    Secretary Bodman. No, I would not, ma'am. With all due 
respect, there is an almost $470 million drop in EERE and that 
comes largely from 2 areas. One is $187 million in earmarks 
that were put in by Congress. Secondly, it is $223 million in 
the weatherization program and that is in combination of the 
vast bulk of the reduction in EERE.
    Ms. DeGette. Well, I know that my time has expired so 
someone else perhaps will ask you about the reduction in 
weatherization, but I can't help but agree with you on the 
earmarks myself, and I yield back.
    Mr. Dingell. The time of the gentlewoman has expired. The 
chair recognizes now the gentleman from Nebraska, Mr. Terry, 
for 6 minutes.
    Mr. Terry. Thank you, Mr. Chairman. Just to make sure that 
I have read the budget right on that. Terraphon ethanol, that 
is still in there?
    Secretary Bodman. The terraphon ethanol is geared to 
expire, I believe at the end of this year. And the 
Administration's position on the terraphon ethanol is that we 
are prepared to talk with Congress about that as we move 
forward but it is not something that is in the budget, neither 
the subsidy nor the tariff. I guess the subsidy is but not the 
tariff.
    Mr. Terry. Okay.
    Secretary Bodman. The subsidy lasts through, I believe, the 
year 2010, if I am not mistaken. But the tariff expires at the 
end of this calendar year.
    Mr. Terry. Then just a cursory review of the budget. My 
friend from Colorado and I share some of the same concerns on 
research and development and renewable fuels. My emphasis has 
been more on the cellulosic ethanol portions of it. I was 
energized, enthusiastic with some of the words of the President 
during the State of the Union when he challenged the 
appropriators in Congress to double the funding for renewable 
energy research and development. I look in the programs in the 
budget and some projects have increases, some have decreases, 
but it doesn't look like your office wants additional funds for 
research and development. Can you help clarify or work me 
through where we are going to do the increased amount of 
research and development on renewables?
    Secretary Bodman. The request that we have is about the 
same as the 2008 request. It is also a $100 million increase in 
the advanced energy initiative from the 2008 request so I mean 
it all depends on which aspects of this you look at. I can tell 
you that I do not view this as something that we are--I didn't 
think I was going to have to come in here and defend against 
accusations that we were cutting research funding. That is not 
what this is involved with. The science budget calls for an 
increase from about $4 billion up to $4.7 billion. That is $700 
million. It is a very sizable effort. Some of that will go to 
hydrogen. Some of that will go to carbon capture and 
sequestration. So it is moving in a whole variety of areas 
technically that I think one of the issues that we are trying 
to do is to integrate the science office much more carefully 
with the applied research efforts, and I think we have been 
successful in doing that, but the result is that when you look 
at the budget on a budgetary basis it does not appear that way 
because we don't account for it that way.
    Mr. Terry. You mentioned that in the budget research budget 
generically then some will go to hydrogen, for example.
    Secretary Bodman. Yes.
    Mr. Terry. Hydrogen is another area that I have spent a lot 
of time and effort trying to push down the road. Now I see from 
the budget though that we do have that it is planned to zero 
out the 5-year hydrogen initiative. Is it a fair assumption on 
my part that you feel that the science has progressed far 
enough that now you are going to put your emphasis how to roll 
it out into the market?
    Secretary Bodman. No. The focus is two-fold in the budget. 
First of all, my hydrogen initiative shows that we got $267 
million that we are going to spend on hydrogen this year versus 
$280 last year, so pretty close to where it was. EERE shows a 
sizable reduction. Why? Because we are focusing in EERE on fuel 
cells and on hydrogen storage on board a vehicle, not on the 
vehicle technology aspects, so that is what that is, but we are 
seeing an increase in the science budget from $36 million last 
year to the request of $60 million, and that goes a long way to 
making up the difference but it is going to be focused on the 
science aspects of this as opposed to the engineering aspects 
or the vehicle technology aspects.
    Mr. Terry. For example, what would be some of the science 
aspects so I can get my mind around it?
    Secretary Bodman. Oh, I think it is going to be--I am now 
beyond my knowledge of this.
    Mr. Terry. You can send your science person up to talk to 
me. Will you make sure that happens?
    Secretary Bodman. We would be happy to do that but it is 
going to be studying the chemistry of various kinds of metal 
hydrides so that we will know how and why hydrogen gets 
absorbed in different ways with different metals and so that 
will be the focus of it, and that is something that only a 
scientist can do.
    Mr. Terry. I appreciate that, and my time has run out, so 
thank you, Mr. Secretary and Mr. Chairman.
    Mr. Dingell. The chair thanks the gentleman. The chair 
notes that the next of our colleagues to be recognized is the 
gentleman from Washington State, Mr. Inslee, will be recognized 
for 6 minutes.
    Mr. Inslee. Thank you. Mr. Secretary, this is the climate 
change report of 2007, the synthesis report, a summary for 
policy makers. Have you read this document?
    Secretary Bodman. I can't tell you that I have, no.
    Mr. Inslee. This is the pre-eminent scientific assessment 
of the condition of the planet Earth and the major challenge to 
its continued stability of our climate system upon which human 
life depends. I think it would be a really good idea if the 
United States Secretary of Energy was fully familiar with the 
science in this report. I will tell you why.
    Secretary Bodman. I didn't say I wasn't familiar with the 
science. I don't know what is in there. I haven't read it.
    Mr. Inslee. Well, I am here to urge you to read it because 
if you read it, I think you will conclude as I have that the 
United States under the current Administration is still taking 
the attitude of the ostrich rather than the attitude of the 
American eagle when it comes to the science of this report. If 
you read this report, you will conclude that there is 
overwhelming consensus in the scientific community that we are 
up against very, very significant danger in the plant, not just 
the earth but in fact we are in a planetary emergency, and we 
would expect the United States under those circumstances to 
lead the world in the technological development of the policies 
to deal with this problem.
    Secretary Bodman. I believe we are doing that.
    Mr. Inslee. Well, I don't think you are, and I will tell 
you why.
    Secretary Bodman. Well, I believe we are.
    Mr. Inslee. Well, I am going to give you a chance to 
express your position. Let me express mine.
    Secretary Bodman. Sure.
    Mr. Inslee. Two weeks ago James Connaughton sat where you 
are, and I asked him to help lead the country in development of 
a cap and trade system that will put a legally binding limit on 
the amount of carbon dioxide going into the atmosphere and 
using the efficient use of the market to allocate that 
resource. He basically did this sort of shuffle that we have 
seen on occasion that refuse to give us that leadership. We now 
are talking on a bipartisan basis trying to develop a 
meaningful cap and trade system.
    Secretary Bodman. Right.
    Mr. Inslee. It is absolutely fundamental to the development 
of the technologies you and I know we have to develop to tame 
this beast. So given the science that you say you are familiar 
with and that is very clear in this report, given the fact that 
you Europe is moving in the cap and trade system, given the 
fact that we know that it works because we invented it here for 
sulfur dioxide. Why can't your Administration help us on a 
bipartisan effort, come out and say the President is going to 
help adopt a cap and trade system in a meaningful and practical 
sense? Why can't you do that?
    Secretary Bodman. I will tell you why. I have been here 7 
years, 3 years in Commerce, 1 year in Treasury, 3 years in 
Energy. During that time I have been negotiating with the 
Chinese in one form or other about their exchange rates. You 
know how much progress we have made? About that much in terms 
of the exchange rates of the Chinese. I do not believe that we 
are going to be in a position until we get a buy-in by China, 
by India, by the developing world into with all of the major 
emitters. That is what the so-called MEM process is all about. 
And they have had 2 meetings so far, one here in Washington, 
and then in Honolulu. I am not sure where the next one is going 
to be. I think in Europe. And the goal here is to have all of 
the major emitters meet and agree on a plan that, if you will, 
parse out who will deal with this. But until that time for us 
to unilaterally agree to do something in my judgment is a 
mistake from a negotiating standpoint.
    Mr. Inslee. So one person in a not very diplomatic 
statement at the last conference in Bali asked the United 
States to lead, follow or get out of the way. We are working on 
a cap and trade system that is not going to work for the 
Chinese. We did not wait for China to adopt democracy before we 
did in the United States. We are the world's leaders and we are 
the people who have the technological ability to solve this 
problem. Now I want to ask the Administration to lead, follow 
or get out of the way. I am going to ask you today to tell us 
if we pass a cap and trade system on a bipartisan basis and it 
passes the House and U.S. Senate can you tell us the President 
is going to sign it or at least tell us today he hasn't decided 
to veto it?
    Secretary Bodman. I can't tell you that. I have not talked 
with the President about it.
    Mr. Inslee. You haven't talked to the President about a cap 
and trade system?
    Secretary Bodman. No.
    Mr. Inslee. That is stunning to me.
    Secretary Bodman. Well, I am telling you my view, and I 
tried to explain that to you, sir. I will say it again. I have 
spent 7 years negotiating with the Chinese about their exchange 
rates. There is no leverage in dealing with the Chinese. The 
only leverage we have is what we will be willing to do, and 
that has to be arrived at in a negotiation with them, with the 
Indians, and with other participants, I believe. That is what 
the President's view is and that is certainly what my view is.
    Mr. Inslee. Well, I have to tell you it is most disturbing 
while we are making progress here in Congress the 
Administration continues to keep its head in the sand on this 
issue. America wants to lead the world on this issue. I just 
tell you it is stunning to me that our Secretary of Energy has 
not talked to the President of the United States about how to 
fashion a cap and trade system. I encourage you to do so. We 
need your leadership. We want this to be a bipartisan effort, 
and I hope you will find a way to help us on that. Thank you.
    Mr. Dingell. The time of the gentleman has expired. The 
chair has a quick announcement and then the chair is going to 
indicate further business here. The chair notes that there are 
going to be a series of votes on the floor, 4 in number. First, 
previous question on H.R. 4137, College Opportunity and 
Affordability Act. Second, H.Res. 956, a rule providing for 
consideration of H.R. 4137. Then H.Con Res. 283 calling for 
peaceful resolution of the current election crisis in Kenya. 
The first vote will be 15 minutes. The second will be 5. The 
third will be 5. And then there will be an additional 5-minute 
vote on H.R. 4848 to extend for one year the priority on 
application of certain limits to mental health benefits and for 
other purposes. The chair will plan on hearing from two of our 
colleagues. We will go then promptly to the Floor. The 
committee will reconvene at 1:00. At this time the chair 
recognizes the gentleman from Florida, Mr. Stearns, for 5 
minutes.
    Mr. Stearns. Thank you, Mr. Chair. Mr. Secretary, let us 
just separate China and India from this. Do you agree or 
disagree in principal with the idea of a cap and trade system?
    Secretary Bodman. You know, the idea of a cap and trade 
system or a carbon tax or whatever it is is something that has 
been talked about. I have expressed my views until the White 
House decides to--
    Mr. Stearns. No, I am just asking your view.
    Secretary Bodman. I am not going to render an opinion.
    Mr. Stearns. So you are saying as the Secretary of Energy, 
you have no opinion on cap and trade?
    Secretary Bodman. That is correct.
    Mr. Stearns. Okay. Are you familiar with the problems that 
the cap and trade has had in the European Union?
    Secretary Bodman. Generally, yes.
    Mr. Stearns. In fact, they suspended it because of fraud, 
corruption, and they are relooking at it. You are familiar with 
those backgrounds?
    Secretary Bodman. Yes.
    Mr. Stearns. Do you think any of that would be a concern if 
we adopted cap and trade in the United States?
    Secretary Bodman. Of course. Of course.
    Mr. Stearns. So what has happened in Europe could very 
likely occur in the United States with the same problems?
    Secretary Bodman. Of course. Of course.
    Mr. Stearns. With my opening statement talking about the 
strategic petroleum reserve expanding it, can you give me just 
briefly the long-term plan for the expansion of this reserve, 
the strategic petroleum reserve, just real briefly what the 
long-term plan is.
    Secretary Bodman. Well, the current inventory is about 700 
million barrels. That is about what we now have, and we are in 
the process of increasing that number up to the capacity of 
727, which we hope to do this year. The existence of the 
strategic petroleum reserve is a matter of in my judgment of 
national security. We need it to protect this country in the 
event of a physical interruption in supply as we had with 
Katrina and Rita and we used it at that time. The President 
looked at that. We have about 58 days, I think, and if we are 
able to get up to the 727 that will be about 60 days of 
protection. We would like to have 90. And so that the increase 
of the capacity of this to a billion barrels is something that 
Congress has already signed off on. If we are successful in 
doing that, that will get our coverage up to about 75 days. By 
going up to a billion and a half barrels which we would expect 
to be by the year 2025 then we would be at about 90 days 
protection.
    Mr. Stearns. When you do your projections and you look at 
this, what do you anticipate oil prices will be in 5 years?
    Secretary Bodman. One of the advantages of this job, there 
aren't many sir, but one of the advantages, I don't make 
forecasts in terms of price.
    Mr. Stearns. So you could not even project what it would be 
in 2 years or 1 year?
    Secretary Bodman. Well, I choose not to. That is not 
something that I have to do in this job. My job is to try to 
arrange for any work on a diversity of supplies, of roots, and 
of suppliers within each type of energy, and that is what I do.
    Mr. Stearns. At the University of Florida researchers are 
developing a new innovative technology for the conversion of 
renewable biomass into fuels, and with the 15 million acres of 
forest land and 10 million acres of farm land Florida has 
tremendous potential to become a national leader and producer 
of bio-energy. With the passage of the 36 million gallon 
renewable fuel mandate last year, Mr. Secretary, do you have 
any new updates for us on the status of the technology for 
cellulosic bio-fuel? As I understand it, by the year 2012 a new 
law will demand over 15 billion gallons, 2 billion of which 
need to be advanced bio-fuel. The other question is are we on 
target at all for the 2012?
    Secretary Bodman. Well, we are on target to try to 
accomplish the cost performance of cellulosic ethanol to cause 
that to become competitive with corn-based ethanol by the year 
2012 so it not exactly is going to meet that criteria. With 
respect to the investments that we are making, we have made 
substantial investments in the new bio-energy centers that are 
located in Tennessee, in Wisconsin, and in California. Those 
are leading efforts to apply the science that has been 
developed by the bio-tech industry to the energy problem, and 
then in addition we have had sizable investments in new types 
of cellulosic ethanol, one of which is in Florida using citrus 
rinds as a feed stock and so we are optimistic. There is one in 
Florida using citrus rinds, one in Georgia using wood pulp, two 
in Iowa and Kansas that are using corn switch grass in Idaho 
and--
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Dingell. The chair apologizes. The chair asks 
unanimous--the chair has been informed Secretary Bodman must 
leave here at 1:00. Mr. Secretary, we are trying to respect 
that, so we will reconvene then at 12:30. Ms. DeGette will 
preside over the committee. The chair has something else to do. 
The chair recognizes now the distinguished gentleman from 
Massachusetts, Mr. Markey, for 5 minutes.
    Mr. Markey. I thank the chair. Secretary Bodman, are you 
familiar with the Markey-Cox nuclear export amendment to the 
2005 Energy Policy Act?
    Secretary Bodman. No.
    Mr. Markey. The Cox-Markey amendment states that no nuclear 
materials and equipment or sensitive nuclear technology shall 
be exported or re-exported or transferred or re-transferred 
whether directly or indirectly, and no Federal agency shall 
issue any license approval or authorization for the export or 
re-export or transfer or re-transfer whether directly or 
indirectly of these items or assistance to any country whose 
government has been identified by the Secretary of State as 
engaged in state sponsorship of terroristic activities. Earlier 
you told Mr. Dingell that you believe that the Energy 
Department's contracts with these Russian nuclear institutes 
were in your words fully consistent with U.S. law and policy.
    Why wouldn't funding a Russian nuclear institute that is 
working to build key components of Iran's nuclear reactor in 
Bushehr be either a direct or indirect export transfer or re-
transfer of nuclear technology or nuclear assistance to Iran?
    Secretary Bodman. What I expressed to the chairman was that 
at the time that I received his letter yesterday, I have had 
whatever it is, 15 hours to try to work it, and I have asked 
the principal deputy administrator of the NNSA to go to work on 
the problem and to answer the questions in his letters. That is 
basically what I said. I said with respect to the Bushehr 
reactor, my understanding is that this is something that the 
President has spoken to President Putin about, that the 
proliferation issues have been discussed, and that that reactor 
remains under IAEA safeguards and this--
    Mr. Markey. Before this contract was entered into, did you 
make a determination as to whether or not it could be in 
violation of the Markey-Cox amendment which is the law of the 
United States barring nuclear assistance to countries that 
sponsor terrorism?
    Secretary Bodman. I presume that they did but I did not 
personally so I cannot speak--
    Mr. Markey. So you do not know?
    Secretary Bodman. That is correct.
    Mr. Markey. Will you give me your assurance personally that 
you will investigate the legality of this program and ascertain 
whether it is in fact a violation of the Markey-Cox amendment?
    Secretary Bodman. I will certainly do that.
    Mr. Markey. Thank you. I think there is a very disturbing 
possibility that it is in fact in violation of the law. Let me 
ask a second question. Mr. Secretary, would you agree that the 
weatherization assistance program which President--which the 
Bush Administration fiscal year 2009 budget would zero out is 
the country's longest running and perhaps most successful 
energy efficiency program?
    Secretary Bodman. I don't know the answer to that.
    Mr. Markey. Well, your own department on its web site until 
2 days ago said that the weatherization program is the 
country's longest running and perhaps most successful energy 
efficiency program.
    Secretary Bodman. Okay.
    Mr. Markey. Then, Mr. Secretary, the Bush Administration 
zeroed out the money for the weatherization program.
    Secretary Bodman. Yes.
    Mr. Markey. And then yesterday deleted the text from the 
Department of Energy web site that said that it is the 
country's longest running and perhaps most successful energy 
efficiency program. So, Mr. Secretary, why would you cut out 
the funding for your most successful program?
    Secretary Bodman. For the reasons that I mentioned that 
this program is carried out in EERE who have all sorts of 
increases in research funding and energy efficiency work and 
Energy Star work that have higher rates of return on the 
investment that goes into it.
    Mr. Markey. Your own analysis makes clear that this program 
is your top program, and I just think that once again it shows 
that the Bush Administration is sacrificing the long-term 
energy efficiency opportunities that our country has for short-
term budgetary purposes. It is just not still well understood 
inside the Bush Administration how much energy will be saved if 
we make the investment now. Let me ask one final question, and 
that is on the question of television set efficiency. You 
probably now that new high definition television sets can 
consume as much power as a refrigerator, and the department has 
yet to develop a minimum energy efficiency standard this year 
for televisions. When can we expect the Department of Energy to 
propose energy standards in this area?
    Secretary Bodman. I have no idea, Congressman, but I will 
be happy to take that question for the record and respond to 
you.
    Mr. Markey. Millions of new, highly inefficient television 
sets, these new huge sets that men go out and buy so they can 
see the Super Bowl, so they can see the NCAA basketball 
tournament now consume as much electricity as a refrigerator. 
Would you support the efforts underway in states like 
California and Massachusetts to issue minimum energy efficiency 
standards for televisions in the absence of no national 
standards in the Bush Administration?
    Secretary Bodman. I don't know. I mean I will be happy to 
respond to that rather than doing something on the spur of the 
moment. I would be happy to respond as I have said to you 
across the board on this issue.
    Mr. Markey. You should expect me to continue to press you 
on this television set issue, and to insist that California and 
Massachusetts be allowed to act if you are not going to make a 
decision on it.
    Secretary Bodman. I understand.
    Mr. Markey. I thank you. This hearing is in recess until 
the aforementioned 12:30 reconvening of the committee. Thank 
you, Mr. Secretary.
    [Recess.]
    Ms. DeGette. [Presiding] The committee will come to order. 
The chair recognizes the gentleman from Pennsylvania, Mr. 
Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Madam Chair, and thank you, 
Secretary Bodman, for being here. I appreciate all the work you 
have done to help our country, but as you know there is much 
that needs to be done in the area of energy. I want to ask you 
specifically about some things related to oil. A couple months 
ago the report came out the U.S. trade deficit had surged by 
9.3 percent to $63.12 billion, which was the highest in many 
years. They attributed that to a large extent on the price of 
oil saying it was an economic drag and saying that at that same 
time imports from China declined and imports from Europe 
declined because of the condition of the dollar and other 
issues there. I wonder if you could comment to the extent that 
we continue to increase our dependence upon foreign oil, your 
comments on--I know the President recently was in Saudi Arabia 
and there it seemed to me made an appeal for more oil 
production, and yet in this country we have placed off limits 
or in effect embargoed our oil off the Atlantic Coast, The Gulf 
Coast, the Pacific Coast, the western states and Alaska, and my 
sense is that if we had more oil in the pipelines coming from 
our country and to do that in an environmentally responsible 
way following our laws that we would not have this same issue 
on our economy. I wonder if you could comment about those 
issues of our access to oil and its impact on our economy.
    Secretary Bodman. Well, it is a big problem. I would say 
certainly if we had--were to exploit our own reserves in a 
better fashion than we have heretofore, we would have more oil. 
We would be able to get the benefits to this country to our 
citizens. We would also it seems to me affect the world price 
so that it would start to reduce pressure on price around the 
world, and it would incidentally, if I may say, it would make 
the job of the energy Secretary a lot easier because we have 
a--every time I start it is always a discussion of oil price 
and OPEC and what the issues are so anything we can do to do 
that, the President has spoken to it, I have spoken to it, so 
whether it is Anwar or whether it is drilling offshore in 
Alaska, whether we got an embargo on the West Coast, we got an 
embargo on the East Coast, the only place that seemingly want 
to drill or will drill is in the Gulf of Mexico, and it is a 
real problem.
    Mr. Murphy. And much of that is further away. I understand 
Cuba is drilling from our coast. Thank you for that input. I 
share your concern about the drag it has on our economy and we 
keep saying no to that and yet we have to power our cars, and 
we are investing so much money now. It is affecting our 
economy, and money that is going overseas instead of being 
invested here. What I would like to see us do it in smarter 
transportation systems, and if we are even going to have the 
money for more efficient automobiles we are not going to have 
that if we are sending our money over to the countries.
    If I could shift now to the issue of coal. I mentioned in 
my opening statement about the demands for energy in this 
country doubling by 2050. And I said I was pleased that you are 
offering to put more money into research and development and 
clean coal. I do want to ask you though will that be enough and 
what do we need to engage in a long-term commitment to move us 
really towards cracking the code on clean coal zero emissions 
coal technology in order to meet our needs for the future.
    Secretary Bodman. Well, we have $648 million in the budget 
for research and development of coal. That is a big increase. I 
think that is the biggest number in 25 years and so it is a 
major undertaking. There are all a manner of different 
approaches to it but in significant measure that money will go 
to the carbon capture and sequestration program, not in its 
entirety, not all $650 million but well over $400 or $500 
million of it will eventually end up in that area. In order to 
use coal in my judgment we have to capture and sequester the 
carbon dioxide that gets created when coal gets burned. That is 
an issue. And so we have to find a way to resolve the problem 
and in my view that is what we are aiming to do, and we are 
doing everything that I know how to do and more than that to 
try to solve this problem.
    Mr. Murphy. I want to thank you. I really think that is one 
of the environmental and economic challenges of our time. I 
know the jobs of hundreds of thousands, millions of Americans, 
depend--
    Secretary Bodman. I think that is right. Fifty percent of 
our electricity comes from coal as you well know and we are 
going to need it.
    Mr. Murphy. Thank you so much, sir. I yield back. Thank 
you.
    Ms. DeGette. The gentleman's time has expired. The 
gentleman from Utah is recognized for 6 minutes.
    Mr. Matheson. Thank you, Madam Chair. Welcome again, 
Secretary Bodman, before our committee. We were talking just 
before we started, you guessed I might ask you a question about 
the tailings pile so you anticipate well. It is an issue near 
and dear to me and my constituents in Utah but also to the many 
millions of downstream users along the Colorado River in 
Arizona, Nevada, and California as well, and I actually got a 
picture of where the tailings pile is with the Colorado River 
going right by it, 16 million tons of radioactive tailings. 
Over the years many sites have been cleaned up. This is the 
biggest and ends up being sort of the last one in the queue for 
clean-up. And last year when we were talking here before this 
committee questions came up about the schedule for doing this, 
and you had indicated it could very well be extended out for a 
long period of time. That wasn't necessarily what some of us 
liked to hear and subsequent to that hearing and in the past 
year Congress has now passed in the defense authorization bill 
language that calls for a completion date to move the tailings 
by the end of the year 2019.
    That was signed into law by the President as part of the 
2008 defense bill. Do you think that with Congress kind of 
encouraging you and that signed into law, is this a date that 
the DOE thinks is going to be achievable to make?
    Secretary Bodman. Based on what I now know, the answer is 
no. We are in the stages of doing engineering and work on it 
that will enable us to, if you will, base line the project and 
get a better sense of it. But based on the funding restrictions 
that we have placed on that we are looking at something that is 
going to be 2025 or later.
    Mr. Matheson. And that is obviously something I didn't want 
to hear because we did pass this law here.
    Secretary Bodman. I know you didn't want to hear it. I 
thought I told the truth and--
    Mr. Matheson. And I appreciate that. I am trying to figure 
out when the DOE completed its decision it said this would take 
somewhere from 7 to 10 years and so that is I guess what also 
causes the frustration is we are dragging this thing out over a 
lot longer time frame than your own record of decision had 
indicated. I do know your folks in the field are talking about 
viewing this act of Congress as a soft date, and I do think we 
need to keep talking about this because I do think we want that 
to be done by 2019.
    Secretary Bodman. I certainly recognize your zeal about 
that subject, sir.
    Mr. Matheson. Not just my zeal. As I said, I got a lot of 
members of Congress in a bipartisan way in the down river 
states who don't understand why it has taken so long. It seems 
like every step of the process is taking longer, and I would 
encourage you to take a look at what is going on in your field 
office because I do not understand why it is one delay after 
another after another. I don't think it is just funding. I 
really don't. I think this has taken far too long even for the 
preliminary engineering and preliminary stages that have been 
pursued so far. It is not happening on a timely basis out there 
in the field.
    Secretary Bodman. I would be happy to look at it, sir.
    Mr. Matheson. If you believe that the budget doesn't allow 
for moving ahead on this, is that because there are other 
projects of greater priority for the existing budget?
    Secretary Bodman. Yes.
    Mr. Matheson. Could you maybe articulate what those would 
be within this--and I just mean within this clean-up and 
remediation--
    Secretary Bodman. It is about 1 billion 9. It is almost I 
think 7 or 8 of the entire budget of the Energy Department is 
at Hanford, and there there is concern about the presence of 
heavy metals as well as nuclear materials in the ground water 
so that has a very high priority. The work at Savannah River 
has a high priority. The work at parts of Oak Ridge has a 
priority. Areas where we have so-called D&D which is 
decommissioning and destruction of a building that tends to 
have a lesser priority just because those buildings, they are 
unsightly to look at but they don't have a big impact on the 
environment.
    Mr. Matheson. So Congress provides additional money in that 
fund. I want to make sure that in your view is the primary 
variable that is delaying this because my concern is I see a 
lot of foot dragging, I don't know why, for other reasons, I am 
just moving along where money at the front end is not really 
the problem. So I am going to work my best here in Congress to 
make sure we appropriate the right amount of money in this area 
to get this thing done. But my concern is that, and I would 
suggest you do need to review what is going on within your 
field office to find out why this is taking so long.
    Let me raise one other issue in the brief time I have got 
left. The record of decision suggests that this should be moved 
by rail, and yet I understand the DOE's field office is talking 
about possibly changing the way they transport this. And I 
don't expect you to be in the weeds on this issue but I want to 
make sure this change if it is going to be considered does not 
delay the project or if there is going to be a change, we ought 
to go ahead and make the change but I would encourage you to--
if you could maybe get back to me on that about how that issue 
is going to be considered and what hopefully is a time limit 
because--and let me just finish this thought and then you can 
respond, discussion about reopening the record of decision. 
That discussion has been going on for over a year. And if we 
are going to reopen it, let us reopen it. Let us not talk about 
it for more than a year and not reopen it. Let us make a 
decision and let us move on because this is the example I have 
been talking about.
    I feel like everything just gets slow walked. Everything 
seems to get slow walked here and a lot of us are feeling 
frustration about that.
    Secretary Bodman. I am unfamiliar with whether it is rail 
or moved on I guess roads which would be the alternative, truck 
it, and so I will respond and do it for the record with you 
personally.
    Mr. Matheson. Okay. I really appreciate that. Madam Chair, 
I see my time has expired.
    Ms. DeGette. Thank you. The gentleman's time has expired. 
The gentleman from Texas, Mr. Hall, is recognized for 5 
minutes.
    Mr. Hall. Madam Chairman, I thank you. Mr. Secretary, I am 
one of your admirers. I respect you and I thank you for leaving 
the highly successful business world and coming here and giving 
us your time.
    Secretary Bodman. Thank you, sir.
    Mr. Hall. And now you expect me to knock you around a 
little but I am not even going to do that. I thank former 
Chairman Barton who visited with you about the ultra deep 
water. I just want to get some input into the record on this. I 
know what your position is. I know what the Administration's 
position is. I know what you need to do, and I respect it, and 
I am not offended by it. I am kind of like the farmer was 
toward the boll weevil. He didn't hate him. He just didn't like 
the way he made his living. I have got to talk about the ultra 
deep water and the unconventional natural gas and other 
petroleum research fund. And as you know, the ultra deep water 
and unconventional natural gas and other petroleum research 
fund created by the Energy Policy Act of 2005 has been 
scheduled, and is funded from mandatory Federal revenues from 
oil and gas leases, and I understand that consistent with 
fiscal year 2007, fiscal year 2008 budget requests it has been 
funded, right?
    Secretary Bodman. That is correct.
    Mr. Hall. And fiscal year 2009 budget proposal to repeal 
the program through a legislative proposal.
    Secretary Bodman. That is correct, sir.
    Mr. Hall. And I would like to say that I don't understand 
the President's position on this. I am not real comfortable in 
the position of opposing his wishes on that but I have to do 
that. And I want to read into the record if we can ask these 
things like a question, will the R&D program increase domestic 
energy supply, and that is very important to the American 
people and to you and to this Congress and to the President. 
But the answer to that is EI estimates that an earlier version 
of the program would result in a 20 percent increase in natural 
gas supplies by 2025 with a steady increase in production 
between now and then.
    In addition, between 2009 and 2025 lower 48 offshore oil 
production would be over 850 billion barrels higher if this 
program is implemented. And it goes on down to who supports the 
research, and you know the strongest supporters of the research 
have been research universities, small producers that produce 
most of the offshore, on shore natural gas and who have not 
terrible big research capabilities or infrastructure for it. 
Usually the little guys find it and the big guys buy it. And 
actually this program asks the question are major oil companies 
the biggest beneficiaries which has been said, and it is just 
not true. Is this a subsidy for big oil? I am asking is 
Halliburton getting the money? Does Exxon get the money? I 
think the program is clear that it would level the R&D playing 
field which is currently controlled by very few companies 
putting the technology in to the hands of thousands of 
producers and technology firms. What are the environmental 
implications for natural gas exploration and production goes 
along with this. There are positive environmental benefits to 
increasing our use of natural gas.
    Natural gas is clean, efficient fuel. Increased natural gas 
usage will have a positive impact on the environment. And 
finally I guess I would ask you to assure me that the 
Administration will comply with the schedules and intent of the 
law as you see the law, and you have done that.
    Secretary Bodman. As long as the program remains the law of 
the land we will do our best to fund it and execute it, sir.
    Mr. Hall. And I am not talking down to anybody but I read 
to one of your assistants that came here about six months ago, 
I think, when maybe Representative Markey had a bill to knock 
it out at the request of the Administration that the law 
stipulates that the Secretary shall provide funding, not that 
the Secretary may do so, and you have complied with that. I 
read that shall to him 7 times. I am not going to do that to 
you.
    Secretary Bodman. Thank you, sir.
    Mr. Hall. If and when the effort to repeal fails, which I 
think it is going to do, and fails through the legislative 
process for the second time officially and other methods to 
counter the congressional matter that we voted on here that we 
passed through the House, passed the Senate, the President 
signed it. I had the pleasure, Joe Barton and I did, of riding 
west with him to sign the bill, stood right behind him. He did 
say that all I wanted to go out there for was to get some free 
coffee on Air Force One but what he didn't know was I had 6 of 
his coffee mugs in my briefcase at that time.
    But I have high regard, high respect for the President. I 
differ with him on this. And I just hope since it has been 
signed into law this with drilling on Anwar, off the coast of 
Florida, and other places we ought to be drilling that we can 
do that for the greatest good for the greatest number. Thank 
you for your good work.
    Secretary Bodman. Thank you, sir. I appreciate your help.
    Ms. DeGette. The gentleman from New York, Mr. Engel, is 
recognized for 5 minutes.
    Mr. Engel. Thank you, Madam Chairwoman. Mr. Secretary, 
welcome. My colleagues have asked some excellent questions on 
instituting a cap and trade system for greenhouse gas emission, 
on nuclear waste storage at Yucca Mountain, on the proposed 
termination of the weatherization program, all questions that 
in my view haven't received adequate answers. We are very 
concerned about them, and we are disappointed with the approach 
that the Administration is taking in all of these matters. But 
instead of trying to push further on these topics since you 
have been asked these questions, I would like to ask something 
a little different. I would like to talk about something that 
we did do on a bipartisan basis which I think when Congress 
works on a bipartisan basis we always do our best.
    Last year we showed a commitment to addressing our Nation's 
dependence on oil by passing the Energy Independence and 
Security Act, which was signed into law in December of 2007. I 
am wondering, Mr. Secretary, if you could provide me with an 
update to the extent possible and whatever you can't do now, I 
would be happy to take it in writing later on, on the 
implementation of certain important programs that I advocated 
for in that act when this committee was putting it together. 
Among the items that I am particularly interested in are the 
hybrid electric vehicle program and some other advanced drive 
technologies, the renewable fuel standard, and the U.S./Israel 
Energy Cooperation Program.
    The Energy Independence and Security Act included 
provisions from H.R. 670, the Drive Act, which I introduced 
last January along with Representative Kingston. Again, we did 
it in a bipartisan fashion. We had nearly 100 bipartisan co-
sponsors, and I believe and he believes that the provisions 
might change how and what we drive in the future. In 
particular, it requires the establishment of a grant program 
for plug-in electric drive vehicles, the promotion of more 
affordable batteries, and the development of an education 
program for our high schools and colleges to train more 
engineers and scientists that specialize in electric drive 
technologies. It also includes the U.S./Israel Energy 
Cooperation Program, which Representative Sherman originally 
introduced as a stand-alone bill, and then I introduced as an 
amendment to the main House energy bill.
    This requires the establishment of a grant program to fund 
joint ventures between American and Israeli businesses, 
academic institutions, and non-profit agencies to promote the 
development of clean alternative fuels and more energy 
efficient technologies. I just recently learned that Israel is 
going to be a laboratory for cars, electric driven cars, and I 
am particularly interested in that as a way of weaning us off 
of foreign oil, and I look forward to seeing how that works. In 
addition, I advocated for a renewable fuel standard whereby a 
percentage of our Nation's fuel supply will be provided by 
domestic reduction of bio-fuels. I have been in Brazil and I 
have seen how successful they have been with this there and 
obviously this provides a pathway for reduced consumer fuel 
price increase, energy security, and growth in our Nation's 
factories and farms.
    The law requires, Mr. Secretary, that you as the Secretary 
of Energy enter an arrangement with the National Academy of 
Sciences to assess the impact and effectiveness of the 
renewable fuel standards, so I am wondering if you could 
provide me to the extent possible with an update on the status 
of these programs. Thank you.
    Secretary Bodman. Well, we have done in my judgment a great 
deal of work on bio-fuels, on nuclear power plants, on all 
sorts of efforts on solar power, on wind power, renewable 
energy, as well as on nuclear power, all of which to get back 
to the first point you made affect global climate change, and 
they are effectively reducing the carbon foot print of this 
country. And I believe the research work that we are doing is 
leading us in that direction. As to work with the National 
Academy of Sciences, I don't know what happened in all that but 
I would be happy to give you a response on that for the record, 
sir.
    Mr. Hall. Thank you. I know the law also provides you with 
18 months, I believe it is, for the implementation of these 
projects so I would assume that some of these may be just 
starting up and much hasn't happened yet. But if you could 
provide me written testimony with any of this, I would 
appreciate it.
    Secretary Bodman. I would be happy to do that.
    Mr. Hall. Thank you very much. I yield back.
    Ms. DeGette. The gentleman yields back. The chair now 
recognizes the gentlelady from Illinois, Ms. Schakowsky, for 5 
minutes.
    Ms. Schakowsky. Thank you very much, Madam Chair. Mr. 
Secretary, there is so much to ask about but this question 
which focuses on FutureGen also focuses, I think, on the need 
for sense of urgency to move, to move ahead. And we were all 
set to move ahead in Illinois, and I look now at the final site 
selection report by the FutureGen alliance, this was December 
18 when Illinois was announced, the alliance believes the 
Mattoon site provides many clear advantages and minimal 
disadvantages and then lists them, legal issues, the geologic 
conditions and sequestration. For example, the Mattoon site 
would have the smallest CO<INF>2</INF> foot print of all the 
candidate sites. The Mattoon sites provides unfettered access 
to world class monitoring program. The potential for 
environmental impacts is low, offers significant coal 
transportation cost advantages.
    Illinois has enacted meaningful CO<INF>2</INF> storage 
legislation, et cetera. That is why in that unpleasant meeting 
that we had in Senator Durbin's office last week, and maybe I 
came late, I don't know if Bud Albright said this really 
offensive statement in that meeting when he said that the 
government isn't interested in building Disneyland in some 
swamp in Illinois, which first of all was geologically 
incorrect. There is no swamp in Mattoon. And I know that he has 
apologized but I believe it reflects an incredible attitude on 
the fact that he would actually say that. Maybe there is some 
explanation that he was vice president of Federal Affairs for 
Reliant Energy which is based in Texas and lost out to Illinois 
for FutureGen. But that kind of comment, I am not sure it 
renders him fit to serve in our Department of Energy, and I 
know that the senator and others suggested that you rethink his 
employment.
    Here is my question. If we are to move forward quickly, 
which I think we need to do, on clean coal technologies it took 
a year for us to do the environmental impact statement in 
Illinois, which was pretty record time, and now I am trying to 
understand how a time table even would be met of December, 
2008, which put this whole thing off another year which I think 
is extremely unfortunate. You know, there would be need to do 
other environmental impact statements, right?
    Secretary Bodman. Yes, there would.
    Ms. Schakowsky. So do you see the December, 2008 as a 
reasonable time table?
    Secretary Bodman. I think it is certainly a reasonable time 
table if we take advantage of the environmental impact work 
that has been done on the other 4 sites, on Mattoon and the 
other 3 sites.
    Ms. Schakowsky. I don't understand what that means. How 
would that affect--
    Secretary Bodman. What we are doing is the idea of 
FutureGen, and I know that this is not pleasant for you to hear 
but I will say it anyway, that the goal here is to try to 
accelerate the develop of CCS technology which in my view is 
the technology that is going to tell the tale as to how and 
whether coal gets used--
    Ms. Schakowsky. Obviously we completely agree on that.
    Secretary Bodman. I am sorry?
    Ms. Schakowsky. Obviously we completely agree on that. That 
is why we work so hard in Illinois.
    Secretary Bodman. The issue, therefore, is to try to limit 
the cost to the U.S. taxpayer and to accomplish this in 2 or 3 
or 4 different locations. We don't know how much because I 
haven't figured that--we have not yet established--
    Ms. Schakowsky. That is exactly my point that you haven't 
figured out where those would be. When did you decide that 
Mattoon would be a bad idea and that you were going to scrap 
that program?
    Secretary Bodman. I can't give you an exact date, Madam, 
but I can tell you that the issues related to--when I signed 
the letter that Congressman Shimkus--
    Ms. Schakowsky. The November 30 letter.
    Secretary Bodman. Whenever that was, around December 1, 
when I signed that letter I was operating under the impression 
that I had a deal with the alliance, and it turned out I did 
not have a deal with the alliance and so that was--I made an 
error in signing that letter. I agree with that but that was 
the issue.
    Ms. Schakowsky. Okay, but this was a 5-year effort.
    Secretary Bodman. I understand.
    Ms. Schakowsky. Let me ask one further question. The 
criticism of it being too costly now, in our examination of 
those cost figures it appears to us that the increase in costs 
if not entirely, almost entirely due to DOE's project delays 
and the ensuing construction inflationary pressures resulting 
from those delays, that it is the cost of inflation that made 
the project in your estimation unreasonable, is that true?
    Secretary Bodman. The cost increase is certainly on account 
of inflation. I think that the cost increase in the future has 
yet to be told, and the big worry is not just about what the 
cost increase has been which is a doubling is to whether it is 
going to double again, and that is the issue.
    Ms. Schakowsky. Exactly. And the longer we wait to do this 
we are going to see these costs go up. We are extremely 
disappointed, insulted by this decision, and I think it is not 
just about Illinois and Mattoon, it is about moving ahead with 
this technology. Thank you, Madam Chair.
    Ms. DeGette. The gentleman from Michigan is recognized for 
5 minutes.
    Mr. Stupak. Thank you, Madam Chairwoman. I first ask 
unanimous consent that my opening statement be made part of the 
record.
    Ms. DeGette. Without objection, so ordered.
    [The prepared statement of Mr. Stupak follows:]

                     Statement of Hon. Bart Stupak

    Mr. Secretary, I appreciate your appearing in the Committee 
today.
    The past two weeks, Congress has been working on an 
economic stimulus bill. While this legislation will provide 
some economic relief, it does not address a major cause of our 
economic problems - high energy prices.
    Over the past several years, Americans have paid record 
prices to fill up their cars and heat their homes. From 
industry to agriculture, businesses continue to struggle with 
high energy prices as well.
    Unfortunately, rather than addressing the problems of high 
energy prices, the Department of Energy's budget makes 
significant cuts and even eliminates several important programs 
that help diversify our energy sources and help Americans cope 
with high prices.
    This budget drastically cuts Energy Efficiency and 
Renewable Energy programs by $467 million. That's a 27 percent 
cut, which will significantly slow the development of 
alternative fuels and technologies to improve energy 
efficiency.
    Despite Congressional opposition to past cuts, the 
Weatherization Assistance program is completely eliminated from 
the budget, in an attempt to end a vital program that helps 
families reduce their energy bills by improving their homes' 
energy efficiency.
    The Administration also continues to buy oil to double the 
Strategic Petroleum Reserve, driving up demand when prices are 
already very high. As we learned during Hurricanes Katrina and 
Rita, increasing the Strategic Petroleum Reserve will not keep 
prices down during an emergency if we do not have the capacity 
to refine this crude oil.
    These misguided policies continue to place the burden of 
high energy prices on lower-income Americans and small 
businesses.
    If we are serious about turning around our nation's 
economy, we should be doing a better job of promoting 
alternative energy sources such as wind, solar, and geothermal, 
which not only create jobs but will help ease high energy costs 
for families and businesses. We should be encouraging the 
development of energy efficient technologies that will help 
reduce our energy use and lower our energy bills. And we should 
pass my legislation, the PUMP Act, to provide oversight to 
energy markets and reduce the cost of crude oil by as much as 
$30 a barrel.
    Mr. Secretary, the American people deserve solutions that 
help them, not policies that favor the energy sources of the 
past.
    I look forward to your testimony.
                              ----------                              

    Mr. Stupak. And therefore do I get an extra minute since I 
didn't give it?
    Ms. DeGette. Because the gentleman was not present when the 
gavel came down, that answer is no, but I will give the 
gentleman a little comity if the Secretary will.
    Mr. Stupak. Thank you. Mr. Secretary, welcome. As you know, 
and has been alluded to in this hearing here this morning that 
Mr. Dingell and I wrote to you because we believe DOE is 
funding Russian nuclear institutes who are working on 
commercial nuclear projects such as the $1 billion contract to 
build a nuclear power plant in Iran. DOE is also funding 
various projects under the Global Nuclear Energy Partnership in 
Russia including ones involving reprocessing technology. In 
fact, as chair of O&I we had a hearing on this on January 23, 
and we asked a number of questions. Can you assure us today 
that DOE funds are not subsidizing directly or indirectly 
scientists or overheads at Russian institutes that are working 
on the Bushehr reactor in Iran?
    Secretary Bodman. Congressman, as I told the chairman 3 
hours ago or so, I received a letter yesterday from the 
chairman. I have not had time to fully investigate matters but 
I have directed the principal deputy, Bill Ostendorff, who is 
the principal deputy administrator of NNSA, to look into the 
questions that have been raised and to report back to me 
shortly, and I will then report to the chairman--
    Mr. Stupak. Well, our concern was we asked that question on 
January 23, 15 days ago. We did not receive an answer so that 
is why we had to write to you. I understand it has only been 15 
hours or whatever you said earlier, but our investigation shows 
that that is actually in fact what is happening.
    Secretary Bodman. I am told that the project cited in the 
committee's letter or any of the department's scientific 
engagements or projects are not contributing to the Iranian 
nuclear program. That is what I am told.
    Mr. Stupak. I would respectfully request you get that 
verified because GO and others sort of lead us to believe just 
the opposite.
    Secretary Bodman. I understand that, and that is exactly--
    Mr. Stupak. Let me ask you this.
    Secretary Bodman. Sir, if I could just--
    Mr. Stupak. Sure. Sure.
    Secretary Bodman. That is what I am doing and so--
    Mr. Stupak. We asked your chief deputy January 23, it is 
sort of a sensitive issue, and we are still waiting for 
answers. The DOE people who were in charge of this program.
    Secretary Bodman. Chief deputy, sir.
    Mr. Stupak. The guy who is head of GNEP from DOE was here. 
Let me ask you this question. What specific safeguards are in 
place in the GNEP program to prevent the diversion of U.S. 
supplied nuclear technology after we send it to Russia?
    Secretary Bodman. Anything in Bushehr, for example, has got 
IEAE safeguards.
    Mr. Stupak. I am talking about these institutes, U.S./
Russia institutes. There is one in Moscow and there is one in 
the Ukraine. So what safeguards are in place as part of the 
Global Nuclear Energy Partnership to prevent the diversion of 
U.S. supplied technology?
    Secretary Bodman. I don't have an answer to that, sir, but 
I will get one.
    Mr. Stupak. Well, I asked regarding safeguards because our 
hearing showed that there is no agreement between U.S. and 
Russia so no agreement of cooperation that this technology 
won't be shared outside that institute, and we are very 
concerned about it.
    Secretary Bodman. The program is called GIPP--
    Mr. Stupak. GNEP, Global Nuclear Energy Partnership.
    Secretary Bodman. The statute that authorizes us to or 
authorizes GIPP describes DOE responsibilities with respect to 
both commercial and non-commercial projects. All GIPP-related 
projects support fundamental, non-proliferation objectives of 
the United States. Whether they address the deployment of 
proliferation resistance fuel cycles or advanced safeguards, 
technologies or assistance, that is what they do. They are 
part--
    Mr. Stupak. I agree that is the mission statement, but what 
has this Administration done to make sure that policy, that 
technology has not been transferred? If we don't even have a 
cooperative agreement between the U.S. and Russia in this area, 
how do you prevent that transfer of technology?
    Secretary Bodman. I will get you an answer.
    Mr. Stupak. Very good. Let me ask you this question. I 
asked you this a year ago, still waiting for an answer. When 
you were here last time, we talked about the Administration's 
plans to double the size of the strategic petroleum reserve and 
the effect it had on crude oil prices under New York Mercantile 
Exchange. When I asked you about it, you said, and I am quoting 
now, ``You have markets that are in the hands of human beings. 
Human beings are essentially emotional souls.'' You went on to 
say there are substantial swings in the market place. We see 
that. Here we are back here a year later. Oil is around $100 a 
barrel, and during the last year when I asked you, I suggested 
you take a look at our legislation, the PUMP Act, H.R.594, 
which would improve government oversight of these oil future 
markets so we don't have these wild unwarranted swings in the 
market.
    You did a good job of recognizing the problem last year. 
You said you would look at my legislation. Have you looked at 
the PUMP Act, and are you prepared to give us a position on the 
PUMP Act to prevent the unfair manipulation of prices in the 
oil futures markets?
    Secretary Bodman. No, I am not, sir. I am here to tell you 
that the supply and demand for oil has favored the suppliers 
and not the demanders, not the consumers, ever since I was here 
a year ago, that those who have looked at the markets and 
looked at the question of whether speculators are affecting the 
price tell me that the answer is no.
    Mr. Stupak. We had a hearing on that on December 12, and 
experts told us, yes, we could reduce the price of barrels of 
oil by $20 or $30 if we take this speculation out especially on 
the dark market called the Intercontinental Exchange or the ICE 
market. So we have legislation, and whether you agree with me 
or not in our theory, at least I would have hoped that a year 
later you could have at least looked at our legislation and 
commented on it as you had promised a year ago.
    Secretary Bodman. Had I been told to get ready to comment 
on your legislation for this hearing, sir, I would have done so 
but I would--
    Mr. Stupak. Well, I had asked you a year ago. I would hope 
there would have been better follow through with the Department 
of Energy.
    Secretary Bodman. I can't say anything more than I don't 
know.
    Mr. Stupak. Would you look at our legislation and get back 
to us?
    Secretary Bodman. I will look at your legislation and get 
back to you.
    Mr. Stupak. Thank you.
    Ms. DeGette. The gentleman from Kentucky is recognized for 
5 minutes.
    Mr. Whitfield. Thank you, Chairman DeGette. Mr. Secretary--
    Secretary Bodman. Hello, Congressman. How are you, sir?
    Mr. Whitfield. Just fine. Welcome to the Hill. I am very 
sorry that I missed your opening statement. The tornado touched 
down in my district and we had 7 deaths down there, and I just 
got back. But I am glad you are here, and I did want to take 
this opportunity to bring up an issue that you and I have 
discussed before with Senator McConnell and others, and that 
relates to this legislation that I had introduced regarding the 
reprocessing of the waste tailings at the Paducah plant. And we 
know that it is a complicated issue, and it is not clear to 
everyone on precisely what can be done. But many of us agree 
that there are a lot of positives in this legislation, 
particularly the cleaning up of these waste tailings and with 
uranium prices increasing. We have been--as you know, we have 
introduced the legislation. My office and I particularly have 
been talking to Chairman Boucher and Fred Upton and others 
about the possibility of doing a hearing in the energy 
subcommittee on the legislation so that everyone will have an 
opportunity to express their concerns or whatever.
    And I am assuming that from the way that you discussed this 
with us in the past that you will probably be supportive of 
that, not be opposed to it, I would assume.
    Secretary Bodman. Having a hearing?
    Mr. Whitfield. Yeah.
    Secretary Bodman. I certainly would not oppose having a 
hearing.
    Mr. Whitfield. Well, we are going to try to proceed with 
that because we do think there are a lot of positive things 
about this legislation, and I just wanted to raise that issue 
with you and look forward to continue working with you on that 
and others.
    Secretary Bodman. Thank you, sir.
    Mr. Whitfield. Thank you.
    Secretary Bodman. I appreciate it.
    Ms. DeGette. The gentleman yield back. The chair wishes to 
thank the Secretary for his time today and for answering the 
committee members' questions, and announce that this concludes 
the hearing on the Department of Energy's fiscal year 2009 
budget proposal.
    Secretary Bodman. Thank you very much.
    [Whereupon, at 1:15 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                      Statement of Hon. Gene Green

    Thank you, Mr. Chairman. Welcome, Secretary Bodman.
    I want to commend DOE's strong commitment to basic science 
research as well as to nuclear energy programs that can reduce 
our greenhouse gas emissions.
    However, the budget misses several opportunities.
    First, I share my colleagues' frustration with the cut to 
the Weatherization Assistance Program which helps improve the 
living conditions of our most vulnerable citizens.
    Second, DOE's initiative to double the capacity of the 
Strategic Petroleum Reserve is not in our best interest when 
markets are tight and prices are touching inflation-adjusted 
highs.
    Third, I am concerned with the attempt to phase-out 
research into oil and gas technology development that could 
help our nation recover more domestic energy while increasing 
environmental mitigation.
    Finally, I am concerned the loan guarantee program may be 
too prescriptive and not provide enough time for project 
implementation.
    My District has mountains of petroleum coke that, if 
gasified, could reduce our dependence on foreign supplies of 
energy.
    While eligible for loans under EPACT05, these projects may 
not meet the narrowly defined targets set by Congress in the 
FY2008 omnibus.
    Thank you Mr. Secretary, and I look forward to your 
testimony.
                              ----------                              


                   Statement of Hon. G.K. Butterfield

    Good morning Mr. Bodman. I wanted to start off on a 
positive note and express my support for the Administration's 
proposed increase in funding for biomass and biorefinery 
Research and Development. Despite my many objections to the 
recently passed Renewable Fuels Standard and its over reliance 
upon corn-ethanol as a feedstock, the 13% recommended increase 
from last year's funding level will help advance the 
development of the cellulosic biofuels that will eventually 
replace corn-ethanol as the country's primary renewable 
transportation fuel. North Carolina is celebrating the opening 
of our new Biofuels Research Center and they hope to play a 
pivotal role in helping validate the viability of advanced 
biofuels. I also applaud the recommended 3.8% increase for 
vehicle technologies Research and Development because we are at 
the cusp of realizing the promise of fuel-cell technology.
    Despite seeing some promise I must also convey my complete 
dismay with the proposed elimination of the weatherization 
assistance program as well as the 22% decrease in LIHEAP 
funding. For the life of me, I cannot understand how the 
Administration can expect average Americans to cope with 
significant increases in energy costs and an economy on the 
brink of recession while simultaneously pulling the rug from up 
under them.
    Despite receiving roughly $10 million for weatherization, 
North Carolina has put the money to good use assisting 3,500 
households improve the energy efficiency in their homes and 
reduce their home heating and cooling costs. With the 
overwhelming majority of families being 150% below the poverty 
level, saving $300 a year through lower utility rates helps 
people put food on the table. I am acutely aware of how this 
program impacts people in my District given the fact that it's 
the 15th poorest District in Congress. Completely defunding the 
program is a non-starter and it is a moral imperative that we 
do better for Americans.
    I'm equally shocked by the proposed 22% decrease in LIHEAP 
funding, never mind the fact that I already have serious 
concerns with the outmoded funding formula we use at the 
expense of southern states. That is an argument for another 
time but the problem still exists and it only seems to worsen 
each year. In 2007, North Carolinians received $3 million less 
than the previous year despite record drought and heat this 
past summer. Of the 490,000 North Carolina households eligible 
for LIHEAP last year, only 51% received any assistance at all. 
And under the proposed reductions, North Carolina would deplete 
it's LIHEAP funding well before the peak summer season leaving 
many families unable to cover the costs of their electricity 
bills.
    With this being the Administration's last year in office, I 
was hopeful it would show the same level of commitment to the 
American people as it has shown for the people of Iraq. These 
proposed funding levels for weatherization assistance and 
LIHEAP take this country in the wrong direction but I look 
forward to working together to get this country back on track. 
Thank you and I look forward to your testimony.
                              ----------                              


                    Statement of Hon. Tammy Baldwin

    I regret that I was unable to attend the hearing on the 
Department of Energy's FY09 budget due to the serious snowfall 
we received in Wisconsin. However, below are my remarks I would 
have made had I been present.
    In this year's State of the Union, President Bush did 
something nearly unprecedented during his Presidency. He 
actually spent time addressing the United States' commitment to 
confronting climate change. His comments - I'd say written in 
about a paragraph or two - showed a progression in the 
Administration's attention on the issue. For years, there 
wasn't so much as a mention of the need to tackle our nation's 
greenhouse gas emissions. Then last year, we finally heard an 
acknowledgment from the Administration that global warming must 
be taken seriously. And now, in his final year in office, we 
learn that the Administration supports efforts to slow, stop, 
and eventually reverse the growth of greenhouse gases.
    But, as in recent years, our excitement that the President 
will lead our nation and the world in confronting global 
climate change quickly ends when the President's budget is 
released.
    Once again, the FY09 budget calls for increases in funding 
for controversial programs addressing nuclear energy and coal. 
At the same time, the budget proposes to cut energy efficiency 
and renewable programs by 28%. Clearly, this Administration's 
priorities are misplaced.and it makes me wonder whether the 
President's comments at this point are mere lip service until a 
new Administration, one that is committed to solving global 
warming and saving our planet, takes over next year.
    Just as troubling is the Administration's attempt to gut 
our nation's highly successful weatherization program. This 
program not only makes homes more energy efficient, but it also 
produces jobs and provides families with much needed spending 
money that would otherwise be spent on soaring energy bills.
    In my home state of Wisconsin, where we are experiencing an 
especially cold and snowy winter, these funds are critical to 
decreasing residential electric and gas costs and improving 
conservation and efficiency. I am eager to hear from Secretary 
Bodman how the Administration plans to make up for this 
substantial loss of funding that my constituents so desperately 
need.
    In the interest of forging some common ground, let's end on 
a happy note and thank the Administration for devoting funding 
to two science programs that are significant to the University 
of Wisconsin - Madison: first, the increase in funds for fusion 
energy sciences, which will allow UW to sustain its leadership 
in plasma science and electrical energy technology without 
greenhouse gas emissions. And second, the increased funds for 
the bioenergy research centers, one of which is led by the 
University of Wisconsin - Madison, and allows us to accelerate 
basic research in the development of cellulosic ethanol and 
other biofuels. These funds are much appreciated, but their 
impact is going to be minimal under this larger budget with 
misplaced priorities and a lack of global leadership. I can 
only hope that Congress will be able to correct many of the 
shortcomings highlighted here today.
    Thank you Mr. Chairman. I look forward to hearing from the 
Secretary.
                              ----------                              


                    Statement of Hon. Anna G. Eshoo

    Thank you, Mr. Chairman, for holding this hearing and thank 
you, Secretary Bodman, for testifying today about the 
Department of Energy's budget request for the 2009 fiscal year.
    The Department of Energy has a critical role to play in 
some very challenging questions currently before us, most 
importantly our efforts to ensure our energy security and 
mitigating global warming.
    This is an exciting time for the energy market. I think 
that it's safe to say that in 10 years our energy industry will 
look very different than it does today. Researchers are making 
great strides towards harnessing energy derived from the sun, 
water, wind, plants, and the earth. As you know, much of this 
research is taking place in my Congressional District. What 
will power our cars in the future: Electricity, fuel cells, 
solar panels, cellulosic biofuels, or new resources? There are 
many exciting possibilities. The Department of Energy and the 
vital research that it funds is central to developing these 
solutions.
    While the Department of Energy oversees an incredible range 
of important research programs, we are also faced with tight 
budgetary constraints, requiring us to make some difficult 
choices.
    In my district, the Stanford Linear Accelerator Center 
(SLAC) has been a leading physics research facility for more 
than 45 years and made substantial contributions to science, 
producing three Nobel Prizes in Physics and one in Chemistry. 
While we have worked to make substantial increases in the 
federal science budget, it's unfortunate that the President's 
inflexibility and refusal to compromise on the overall 
budgetary number came at such a price to important elements of 
the Office of Science budget. As a result, SLAC has had to lay 
off employees due to budget shortfalls from last year's 
appropriations process.
    We can't allow this to happen at a time when we are so 
concerned with maintaining American competitiveness and lead 
the world in energy research. I'm pleased, therefore, to see 
increases in funding for both High Energy Physics and Basic 
Energy Sciences and I'm hopeful that we will make up for any 
damage done by the 2008 budget shortfall. I encourage the 
Administration to send a supplemental request that would 
staunch some of the cuts that SLAC, FermiLab, and other 
national labs face.
    The budget calls for an increase of more than $130 million, 
or 26 percent, for coal research and development. This is a 
substantial new investment in fossil energy which seems to have 
come at the expense of additional investment in renewable 
energy sources that hold greater promise for clean, sustainable 
sources of energy.
    In contrast to the sharp increase in the coal program, the 
budget request for Energy Efficiency and Renewable Energy 
(EERE) is almost flat relative to the FY08 request. Within 
EERE, I see a $12.3 million cut from the solar energy program. 
Can we really afford to subject a resource as abundant as the 
sun to a 7% budget cut? Are we committing our nation's energy 
future to coal? Is this the Administration's vision?
    Last year a group of researchers announced the development 
of a new solar power cell that is over 40% efficient, more than 
twice the output of what is now available commercially. These 
kinds of discoveries merit further investment. We need to 
identify national priorities and invest in them consistently, 
year after year, to ensure that we make forward progress rather 
than ramping up a program that will then be scaled back if 
funding gets tighter.
    Again, thank you, Mr. Secretary for being here today. I 
look forward to our discussion of these issues and the DOE's 
priorities for the coming year.

[GRAPHIC] [TIFF OMITTED] T9406.006

[GRAPHIC] [TIFF OMITTED] T9406.007

[GRAPHIC] [TIFF OMITTED] T9406.008

[GRAPHIC] [TIFF OMITTED] T9406.009

[GRAPHIC] [TIFF OMITTED] T9406.010

[GRAPHIC] [TIFF OMITTED] T9406.011

[GRAPHIC] [TIFF OMITTED] T9406.012

[GRAPHIC] [TIFF OMITTED] T9406.013

[GRAPHIC] [TIFF OMITTED] T9406.014

[GRAPHIC] [TIFF OMITTED] T9406.015

[GRAPHIC] [TIFF OMITTED] T9406.016

[GRAPHIC] [TIFF OMITTED] T9406.017

[GRAPHIC] [TIFF OMITTED] T9406.018

[GRAPHIC] [TIFF OMITTED] T9406.019

[GRAPHIC] [TIFF OMITTED] T9406.020

[GRAPHIC] [TIFF OMITTED] T9406.021

[GRAPHIC] [TIFF OMITTED] T9406.022

[GRAPHIC] [TIFF OMITTED] T9406.023

[GRAPHIC] [TIFF OMITTED] T9406.024

[GRAPHIC] [TIFF OMITTED] T9406.025

[GRAPHIC] [TIFF OMITTED] T9406.026

[GRAPHIC] [TIFF OMITTED] T9406.027

[GRAPHIC] [TIFF OMITTED] T9406.028

[GRAPHIC] [TIFF OMITTED] T9406.029

[GRAPHIC] [TIFF OMITTED] T9406.030

[GRAPHIC] [TIFF OMITTED] T9406.031

[GRAPHIC] [TIFF OMITTED] T9406.032

[GRAPHIC] [TIFF OMITTED] T9406.033

[GRAPHIC] [TIFF OMITTED] T9406.034

[GRAPHIC] [TIFF OMITTED] T9406.035

[GRAPHIC] [TIFF OMITTED] T9406.036

[GRAPHIC] [TIFF OMITTED] T9406.037

[GRAPHIC] [TIFF OMITTED] T9406.038

[GRAPHIC] [TIFF OMITTED] T9406.039

[GRAPHIC] [TIFF OMITTED] T9406.040

[GRAPHIC] [TIFF OMITTED] T9406.041

[GRAPHIC] [TIFF OMITTED] T9406.042

[GRAPHIC] [TIFF OMITTED] T9406.043

[GRAPHIC] [TIFF OMITTED] T9406.044

[GRAPHIC] [TIFF OMITTED] T9406.045

[GRAPHIC] [TIFF OMITTED] T9406.046

[GRAPHIC] [TIFF OMITTED] T9406.047

[GRAPHIC] [TIFF OMITTED] T9406.048

[GRAPHIC] [TIFF OMITTED] T9406.049

[GRAPHIC] [TIFF OMITTED] T9406.050

[GRAPHIC] [TIFF OMITTED] T9406.051

[GRAPHIC] [TIFF OMITTED] T9406.052

[GRAPHIC] [TIFF OMITTED] T9406.053

[GRAPHIC] [TIFF OMITTED] T9406.054

[GRAPHIC] [TIFF OMITTED] T9406.055

[GRAPHIC] [TIFF OMITTED] T9406.056

[GRAPHIC] [TIFF OMITTED] T9406.057

[GRAPHIC] [TIFF OMITTED] T9406.058

[GRAPHIC] [TIFF OMITTED] T9406.059

[GRAPHIC] [TIFF OMITTED] T9406.060

[GRAPHIC] [TIFF OMITTED] T9406.061

[GRAPHIC] [TIFF OMITTED] T9406.062

[GRAPHIC] [TIFF OMITTED] T9406.063

[GRAPHIC] [TIFF OMITTED] T9406.064

[GRAPHIC] [TIFF OMITTED] T9406.065

[GRAPHIC] [TIFF OMITTED] T9406.066

[GRAPHIC] [TIFF OMITTED] T9406.067

[GRAPHIC] [TIFF OMITTED] T9406.068

[GRAPHIC] [TIFF OMITTED] T9406.069

[GRAPHIC] [TIFF OMITTED] T9406.001

[GRAPHIC] [TIFF OMITTED] T9406.002

[GRAPHIC] [TIFF OMITTED] T9406.089

[GRAPHIC] [TIFF OMITTED] T9406.090

[GRAPHIC] [TIFF OMITTED] T9406.091

[GRAPHIC] [TIFF OMITTED] T9406.092

[GRAPHIC] [TIFF OMITTED] T9406.093

[GRAPHIC] [TIFF OMITTED] T9406.094

[GRAPHIC] [TIFF OMITTED] T9406.095

[GRAPHIC] [TIFF OMITTED] T9406.096

[GRAPHIC] [TIFF OMITTED] T9406.097

[GRAPHIC] [TIFF OMITTED] T9406.098

[GRAPHIC] [TIFF OMITTED] T9406.099

[GRAPHIC] [TIFF OMITTED] T9406.100

[GRAPHIC] [TIFF OMITTED] T9406.101

[GRAPHIC] [TIFF OMITTED] T9406.102

[GRAPHIC] [TIFF OMITTED] T9406.103

[GRAPHIC] [TIFF OMITTED] T9406.104

[GRAPHIC] [TIFF OMITTED] T9406.105

[GRAPHIC] [TIFF OMITTED] T9406.106

[GRAPHIC] [TIFF OMITTED] T9406.107

[GRAPHIC] [TIFF OMITTED] T9406.108

[GRAPHIC] [TIFF OMITTED] T9406.109

[GRAPHIC] [TIFF OMITTED] T9406.110

[GRAPHIC] [TIFF OMITTED] T9406.111

[GRAPHIC] [TIFF OMITTED] T9406.112

[GRAPHIC] [TIFF OMITTED] T9406.113

[GRAPHIC] [TIFF OMITTED] T9406.114

[GRAPHIC] [TIFF OMITTED] T9406.115

[GRAPHIC] [TIFF OMITTED] T9406.116

[GRAPHIC] [TIFF OMITTED] T9406.117

[GRAPHIC] [TIFF OMITTED] T9406.118

[GRAPHIC] [TIFF OMITTED] T9406.119

[GRAPHIC] [TIFF OMITTED] T9406.120

[GRAPHIC] [TIFF OMITTED] T9406.121

[GRAPHIC] [TIFF OMITTED] T9406.122

[GRAPHIC] [TIFF OMITTED] T9406.123

[GRAPHIC] [TIFF OMITTED] T9406.124

[GRAPHIC] [TIFF OMITTED] T9406.125

[GRAPHIC] [TIFF OMITTED] T9406.126

[GRAPHIC] [TIFF OMITTED] T9406.127

[GRAPHIC] [TIFF OMITTED] T9406.128

[GRAPHIC] [TIFF OMITTED] T9406.129

[GRAPHIC] [TIFF OMITTED] T9406.130

[GRAPHIC] [TIFF OMITTED] T9406.131

[GRAPHIC] [TIFF OMITTED] T9406.132

[GRAPHIC] [TIFF OMITTED] T9406.133

[GRAPHIC] [TIFF OMITTED] T9406.134

[GRAPHIC] [TIFF OMITTED] T9406.135

[GRAPHIC] [TIFF OMITTED] T9406.136

[GRAPHIC] [TIFF OMITTED] T9406.137

[GRAPHIC] [TIFF OMITTED] T9406.138

[GRAPHIC] [TIFF OMITTED] T9406.139

[GRAPHIC] [TIFF OMITTED] T9406.140

[GRAPHIC] [TIFF OMITTED] T9406.141

[GRAPHIC] [TIFF OMITTED] T9406.142

[GRAPHIC] [TIFF OMITTED] T9406.143

[GRAPHIC] [TIFF OMITTED] T9406.144

[GRAPHIC] [TIFF OMITTED] T9406.145

[GRAPHIC] [TIFF OMITTED] T9406.146

[GRAPHIC] [TIFF OMITTED] T9406.147

[GRAPHIC] [TIFF OMITTED] T9406.148

[GRAPHIC] [TIFF OMITTED] T9406.149

[GRAPHIC] [TIFF OMITTED] T9406.150

[GRAPHIC] [TIFF OMITTED] T9406.151

[GRAPHIC] [TIFF OMITTED] T9406.152

[GRAPHIC] [TIFF OMITTED] T9406.153

[GRAPHIC] [TIFF OMITTED] T9406.154

[GRAPHIC] [TIFF OMITTED] T9406.155

[GRAPHIC] [TIFF OMITTED] T9406.156

[GRAPHIC] [TIFF OMITTED] T9406.157

[GRAPHIC] [TIFF OMITTED] T9406.158

[GRAPHIC] [TIFF OMITTED] T9406.159

[GRAPHIC] [TIFF OMITTED] T9406.160

[GRAPHIC] [TIFF OMITTED] T9406.161

[GRAPHIC] [TIFF OMITTED] T9406.162

[GRAPHIC] [TIFF OMITTED] T9406.163

[GRAPHIC] [TIFF OMITTED] T9406.164

[GRAPHIC] [TIFF OMITTED] T9406.165

[GRAPHIC] [TIFF OMITTED] T9406.166

[GRAPHIC] [TIFF OMITTED] T9406.167

[GRAPHIC] [TIFF OMITTED] T9406.168

[GRAPHIC] [TIFF OMITTED] T9406.169

[GRAPHIC] [TIFF OMITTED] T9406.170

[GRAPHIC] [TIFF OMITTED] T9406.171

[GRAPHIC] [TIFF OMITTED] T9406.172

[GRAPHIC] [TIFF OMITTED] T9406.173

[GRAPHIC] [TIFF OMITTED] T9406.174

[GRAPHIC] [TIFF OMITTED] T9406.175

[GRAPHIC] [TIFF OMITTED] T9406.176

[GRAPHIC] [TIFF OMITTED] T9406.177

[GRAPHIC] [TIFF OMITTED] T9406.178

[GRAPHIC] [TIFF OMITTED] T9406.179

[GRAPHIC] [TIFF OMITTED] T9406.180

[GRAPHIC] [TIFF OMITTED] T9406.181

[GRAPHIC] [TIFF OMITTED] T9406.182

[GRAPHIC] [TIFF OMITTED] T9406.183

[GRAPHIC] [TIFF OMITTED] T9406.184

[GRAPHIC] [TIFF OMITTED] T9406.185

[GRAPHIC] [TIFF OMITTED] T9406.186

[GRAPHIC] [TIFF OMITTED] T9406.187

[GRAPHIC] [TIFF OMITTED] T9406.188

[GRAPHIC] [TIFF OMITTED] T9406.189

[GRAPHIC] [TIFF OMITTED] T9406.190

[GRAPHIC] [TIFF OMITTED] T9406.191

[GRAPHIC] [TIFF OMITTED] T9406.192

[GRAPHIC] [TIFF OMITTED] T9406.193

[GRAPHIC] [TIFF OMITTED] T9406.194

[GRAPHIC] [TIFF OMITTED] T9406.195

[GRAPHIC] [TIFF OMITTED] T9406.196

[GRAPHIC] [TIFF OMITTED] T9406.197

[GRAPHIC] [TIFF OMITTED] T9406.198

[GRAPHIC] [TIFF OMITTED] T9406.199

[GRAPHIC] [TIFF OMITTED] T9406.200

[GRAPHIC] [TIFF OMITTED] T9406.201

[GRAPHIC] [TIFF OMITTED] T9406.202

[GRAPHIC] [TIFF OMITTED] T9406.203

[GRAPHIC] [TIFF OMITTED] T9406.204

[GRAPHIC] [TIFF OMITTED] T9406.205

[GRAPHIC] [TIFF OMITTED] T9406.206

[GRAPHIC] [TIFF OMITTED] T9406.207

[GRAPHIC] [TIFF OMITTED] T9406.208

[GRAPHIC] [TIFF OMITTED] T9406.209

[GRAPHIC] [TIFF OMITTED] T9406.210

[GRAPHIC] [TIFF OMITTED] T9406.211

[GRAPHIC] [TIFF OMITTED] T9406.212

[GRAPHIC] [TIFF OMITTED] T9406.213

[GRAPHIC] [TIFF OMITTED] T9406.214

[GRAPHIC] [TIFF OMITTED] T9406.215

[GRAPHIC] [TIFF OMITTED] T9406.216

[GRAPHIC] [TIFF OMITTED] T9406.217

[GRAPHIC] [TIFF OMITTED] T9406.218

[GRAPHIC] [TIFF OMITTED] T9406.219

[GRAPHIC] [TIFF OMITTED] T9406.220

[GRAPHIC] [TIFF OMITTED] T9406.221

[GRAPHIC] [TIFF OMITTED] T9406.222

[GRAPHIC] [TIFF OMITTED] T9406.223

[GRAPHIC] [TIFF OMITTED] T9406.224

[GRAPHIC] [TIFF OMITTED] T9406.225

[GRAPHIC] [TIFF OMITTED] T9406.226

[GRAPHIC] [TIFF OMITTED] T9406.227

[GRAPHIC] [TIFF OMITTED] T9406.228

[GRAPHIC] [TIFF OMITTED] T9406.229

[GRAPHIC] [TIFF OMITTED] T9406.230

[GRAPHIC] [TIFF OMITTED] T9406.231

[GRAPHIC] [TIFF OMITTED] T9406.232

[GRAPHIC] [TIFF OMITTED] T9406.233

[GRAPHIC] [TIFF OMITTED] T9406.234

[GRAPHIC] [TIFF OMITTED] T9406.235

[GRAPHIC] [TIFF OMITTED] T9406.236

[GRAPHIC] [TIFF OMITTED] T9406.237

[GRAPHIC] [TIFF OMITTED] T9406.238

[GRAPHIC] [TIFF OMITTED] T9406.239

[GRAPHIC] [TIFF OMITTED] T9406.240

[GRAPHIC] [TIFF OMITTED] T9406.241

[GRAPHIC] [TIFF OMITTED] T9406.242

[GRAPHIC] [TIFF OMITTED] T9406.243

[GRAPHIC] [TIFF OMITTED] T9406.244

[GRAPHIC] [TIFF OMITTED] T9406.245

[GRAPHIC] [TIFF OMITTED] T9406.246

[GRAPHIC] [TIFF OMITTED] T9406.247

[GRAPHIC] [TIFF OMITTED] T9406.248


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
